<html>
<title> - AT WHAT COST? EXAMINING THE SOCIAL COST OF CARBON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










                      AT WHAT COST? EXAMINING THE
                         SOCIAL COST OF CARBON

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2017

                               __________

                           Serial No. 115-05

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







       Available via the World Wide Web: http://science.house.gov

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-670 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
DANIEL WEBSTER, Florida              CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
JIM BANKS, Indiana
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Oversight

                   HON. DRAIN LaHOOD, Illinois, Chair
BILL POSEY, Florida                  DONALD S. BEYER, Jr., Virginia, 
THOMAS MASSIE, Kentucky                  Ranking Member
GARY PALMER, Alabama                 JERRY MCNERNEY, California
ROGER W. MARSHALL, Kansas            ED PERLMUTTER, Colorado
CLAY HIGGINS, Louisiana              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas















                            C O N T E N T S

                           February 28, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamic, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Darin LaHood, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12
    Written Statement............................................    14

Statement by Representative Donald S. Beyer, Jr., Ranking Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    18

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    22

                               Witnesses:

Dr. Ted Gayer, PhD, Vice President and Director of Economic 
  Studies and Joseph A. Pechman Senior Fellow at Brookings 
  Institution
    Oral Statement...............................................    24
    Written Statement............................................    27

Dr. Kevin Dayaratna, PhD, Senior Statistician and Research 
  Programmer, Center for Data Analysis, Institute for Economic 
  Freedom and Opportunity at The Heritage Foundation
    Oral Statement...............................................    34
    Written Statement............................................    36

Dr. Michael Greenstone, PhD, Milton Friedman Professor in 
  Economics, the College, and the Harris School; Director of the 
  interdisciplinary Energy Policy Institute at the University of 
  Chicago and the Energy & Environment Lab at the University of 
  Chicago Urban Labs
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. Patrick Michaels, PhD, Director, Center for the Study of 
  Science, Cato Institute; contributing author to United Nations 
  Intergovernmental Panel on Climate Change (Nobel Peace Prize 
  2007)
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion.......................................................    98

             Appendix I: Answers to Post-Hearing Questions

Dr. Kevin Dayaratna, PhD, Senior Statistician and Research 
  Programmer, Center for Data Analysis, Institute for Economic 
  Freedom and Opportunity at The Heritage Foundation.............   124

Dr. Michael Greenstone, PhD, Milton Friedman Professor in 
  Economics, the College, and the Harris School; Director of the 
  interdisciplinary Energy Policy Institute at the University of 
  Chicago and the Energy & Environment Lab at the University of 
  Chicago Urban Labs.............................................   127

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   134

Document submitted by Representative Darin LaHood, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   136

 
                      AT WHAT COST? EXAMINING THE
                         SOCIAL COST OF CARBON

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2017

                  House of Representatives,
                    Subcommittee on Environment and
                         Subcommittee on Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:07 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee on Environment] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. Good morning. The Subcommittees on 
Environment and Oversight will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``At What Cost? 
Examining the Social Cost of Carbon.'' I recognize myself for 
five minutes for an opening statement.
    Welcome to today's joint subcommittee hearing entitled ``At 
What Cost? Examining the Social Cost of Carbon.'' Today, we 
will examine the previous Administration's determination of the 
social cost of carbon, or SCC, and explore why the calculated 
value is flawed.
    Energy is the bedrock of our society, and yet the SCC 
estimate of the previous Administration has killed jobs, 
limited innovation, and resulted in higher energy costs for 
American families, all in exchange for benefits that are 
negligible at best and nonexistent at worst.
    The Obama Administration's Interagency Working Group, which 
ultimately established an enormously high SCC of $37 per ton of 
CO<INF>2</INF> emitted into the atmosphere, relied on an 
outdated economic model and failed to take into account the 
White House's own Office of Management and Budget, or OMB, 
guidelines for cost-benefit analysis. Quite simply, the working 
group used numbers that got them the results they wanted in 
order to advance some of the most expensive and expansive 
regulations ever written. In pushing forward this political 
agenda, the working group acted irresponsibly. It also allowed 
the previous Administration to implement stringent and costly 
regulations without a scientific basis.
    As we will learn today, the SCC working group ignored two 
major OMB recommendations for federal agency rulemaking. First, 
it failed to use a seven percent discount rate, and instead 
relied on rates of 2.5 percent, three percent, and five 
percent. and, second, it ignored the guideline to report cost-
benefit analysis from a domestic perspective. If nothing else 
is taken away from what will be a very technical hearing, I 
hope it will be these two very basic flaws.
    The low long-term discount rate established by the previous 
Administration fundamentally disregards the notion that the 
American economy is resilient and can respond to potential 
future threats with technological development and innovation. 
As to the flaw of the previous Administration's decision to 
focus on CO<INF>2</INF> emissions from a global perspective, 
this approach leaves the United States footing the bill for 
costly regulations that are based on benefits conferred to 
other countries. It is simply not right for Americans to be 
bearing the brunt of costs when the majority of benefits will 
be conferred away from home.
    By ignoring OMB guidelines, the current SCC models leave 
critical components out of the discussion. If the OMB 
guidelines would have been followed, the social cost of carbon 
would have been significantly lower.
    The previous Administration disregarded scientific 
integrity by overestimating climate change resulting from 
greenhouse gas emissions. In order to push an expensive 
regulatory agenda, the Administration inflated the SCC to 
justify costly regulations in response to the allegedly 
terrible damage CO<INF>2</INF> emissions will cause in the 
future.
    The SCC is nothing but a one-sided manipulation of 
parameters to fit the policy-driven agendas of the previous 
Administration. These alarmist tactics need to stop. Today's 
hearing is intended to uncover the real truth and deception 
behind the SCC.
    America's strength emanates from our resilience and 
flexibility. Attempts to justify government regulations over 
industry innovations hinders growth and development. I look 
forward to working with the Trump Administration to renew faith 
in American ingenuity and technological development.
    [The prepared statement of Chairman Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Biggs. I now recognize the Ranking member of the 
Subcommittee on Environment, Ms. Bonamici, for an opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for being here today.
    The social cost of carbon is a metric used to value the 
damage caused by emitting 1 ton of carbon dioxide into the 
atmosphere in a year. It provides a consistent value for all 
federal agencies to use for their cost-benefit analysis on 
regulatory efforts that reduce carbon dioxide emissions.
    There are some people who criticize this metric, but the 
Government Accountability Office and independent peer review by 
the National Academy of Sciences have validated it many times. 
Additionally, federal courts have upheld that the methodology 
used to develop the social cost of carbon is based on robust 
science and sound economic analysis. It is critical that 
updates to the social cost of carbon metric are based on the 
best available science and updated economic analysis based on 
peer-reviewed literature.
    The Government Accountability Office has found that the 
methodology used to develop the social cost of carbon was based 
on peer-reviewed academic literature and took steps to 
incorporate new information as it became available. This 
process also provided ample opportunity for public comment on 
both the social cost of carbon and the regulations that use the 
metric in their cost-benefit analysis.
    Some people suggest that regulations to reduce the 
emissions of carbon dioxide and other pollutants are 
unnecessary because climate change does not exist or human 
activity does not contribute to it, but simply ignoring a fact 
does not make it less true. The climate is warming, and we need 
to work now to limit the consequences for future generations. 
Our children and grandchildren should not inherit an 
environment that degrades their health and harms their future 
economy.
    Economic growth and reducing carbon pollution are not in 
conflict with one another. Clean energy development allows us 
to continue powering our communities in ways that avoid long-
term negative consequences on future generations. It also gives 
us the opportunity to bring new living-wage jobs into 
communities. In fact, the American Wind Energy Association 
found that the wind energy sector accounts for 3,000 jobs 
throughout my home State of Oregon alone. In addition to 
boosting Oregon's economy, wind energy generation avoided more 
than 1 million tons of statewide carbon dioxide emissions in 
2015, and many of the wind energy jobs are in rural areas where 
jobs are needed.
    The social cost of carbon is not a product of a single 
President, a single scientific study, or a single legal action. 
It is rooted in overwhelming scientific consensus on climate 
change, an effort spanning 30 years from both the executive and 
judicial branches of the Federal Government. These factors, 
coupled with a transparent development process and strong 
economic analysis, form the basis of this metric that has been 
used in at least 79 federal regulations, including fuel economy 
standards for vehicles, energy efficiency measures for home 
appliances, and regulations such as the Clean Power Plan. This 
metric was not invented to serve a political agenda but in fact 
was developed to meet a legal mandate to justify, in simple 
terms of dollars and cents, how the Federal Government's 
actions will affect Americans today and our children and 
grandchildren tomorrow.
    I look forward to hearing how we may best continue to use 
the social cost of carbon in support of policies that protect 
our environment.
    With that, I would like to again thank the witnesses for 
being here today, and I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Chairman Biggs. Thank you, Ms. Bonamici.
    I now recognize the Chairman of the Subcommittee on 
Oversight, Mr. LaHood, for his opening statement.
    Mr. LaHood. Thank you, Chairman Biggs, and happy to be part 
of this hearing today with you, today's hearing titled ``At 
What Cost? Examining the Social Cost of Carbon,'' and happy to 
have the witnesses here today as we examine the previous 
Administration's social cost of carbon and the shortfalls in 
application of this flawed process.
    There is significant evidence that the previous 
Administration manipulated the social cost of carbon 
calculation to reflect significant benefits to enacting what 
were ultimately job-killing regulations and policies across a 
wide spectrum of issues. The social cost of carbon is a flawed 
tool used by the Obama Administration to justify a green agenda 
when, in reality, the prior Administration was seeking to 
offset its costly regulations with far-reaching implications 
that burden our industries and nation.
    Unsurprisingly, the previous Administration ignored 
specific guidelines set forth by the Office of Management and 
Budget, OMB, and used the social cost of carbon as a vehicle to 
tout the economic benefits of the new environmental 
regulations. This is troubling and to me is not being honest 
with the taxpayers.
    Critics take issue primarily with two aspects of the social 
cost of carbon methodology, specifically, the discount rate 
used and the domestic versus global benefits claimed. Both 
issues I look forward to discussing in more detail with our 
panel of esteemed witnesses today.
    I, too, take issue with the methodology but also the lack 
of transparency with the use and development of the social cost 
of carbon. Three statistical integrated assessment economic 
models were used to develop the social cost of carbon: the 
FUND, the DICE, and the PAGE. Experts have concluded these 
three models are flawed and possess too many uncertainties to 
be the foundation of the benefit analysis of environmental 
regulations. If one were to change the assumptions these models 
are based on, the result will drastically differ, demonstrating 
malleability in the social cost of carbon calculation.
    Because of these realities, last year, I was pleased to be 
an original cosponsor of H.R. 5668, the Transparency and 
Honesty in Energy Regulation Act, or THERA, introduced by my 
friend and colleague Evan Jenkins of West Virginia. This 
legislation is aimed at prohibiting the Department of Energy 
and the Environmental Protection Agency from considering the 
social cost of carbon as part of any cost-benefit analysis 
unless specifically authorized by law. If signed into law, the 
DOE and the EPA would no longer rely on manipulated and 
fabricated economic benefits to justify or support new job-
killing environmental regulations. I look forward to working 
with Congressman Jenkins again on this issue this Congress.
    It appears that the social cost of carbon is nothing but a 
political tool lacking scientific integrity and transparency 
conceived and utilized by an Administration pushing a green 
agenda to the detriment of the American taxpayers. Perhaps a 
better measurement of the social cost of carbon is not the net 
damages that result from a one-metric-ton increase in carbon 
dioxide emissions in a given year but the damage inflicted on 
domestic industries, including manufacturers in my district 
like Caterpillar, by the environmental regulations justified by 
this flawed calculation.
    I would like to thank our witnesses for being here today to 
discuss this important matter. In addition, I look forward 
working with the Trump Administration to reverse the damage 
caused by the Obama Administration as it relates to this issue.
    With that, I yield back to the Chair.
    [The prepared statement of Mr. LaHood follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Chairman Biggs. Thank you, Mr. LaHood.
    I now recognize the Ranking Member of the Subcommittee on 
Oversight, Mr. Beyer, for his opening statement.
    Mr. Beyer. Thank you, Mr. Chairman, and thank you, all the 
witnesses, for being here.
    You know, the social cost of carbon is a complex metric 
which our witness Dr. Greenstone has described as the most 
important number you've never heard of. Assessing and 
addressing the impact of climate change on current and future 
generations is critical. It seems already that in just the 
first few minutes of this hearing we see a dramatic difference 
between the short-term emphasis on job creation, which is 
important, and a long-term emphasis on protecting our planet.
    The social cost of carbon permits the government to help 
quantify the future economic damages as a result of carbon 
pollution that contributes to climate change and global 
warming. This metric didn't materialize out of thin and dirty 
air. It took a federal judge to mandate its use during the Bush 
Administration based on a law passed when Ronald Reagan was 
President.
    In 2009, the Obama Administration convened an interagency 
effort to formalize a consistent value for it. This was not a 
political tool. This was an attempt to protect our environment.
    We'll hear today that this development process was 
transparent, it was open to public comment, it's been validated 
over the years, and, much like our climate, it's not static and 
it changes over time in response to updated inputs. And 
although its use has been challenged in the courts recently, 
the courts have upheld the methodology used to obtain this 
estimate as proper based on real science and appropriate 
economic models.
    As a Minnesota administrative law judge determined last 
April, the preponderance of evidence supports the fact that 
federal social cost of carbon is reasonable and the best 
available measure to determine the environmental cost of 
CO<INF>2</INF>. I'm pretty certain we won't hear any of that 
today from the majority members and their witnesses. Instead, 
we'll hear the same arguments made against climate regulations 
that we've heard before. And sadly, those anti-science 
arguments both ignore the abundant scientific evidence that 
shows that climate change exists, that fossil fuel production 
is its main contributor, and will also admonish virtually any 
responsible regulatory mechanism to help protect our nation's 
citizens from the environmental, economic, and public health 
harm that results from climate change's global impacts.
    These individuals will argue already that social cost of 
carbon is outdated, inaccurate, and not a proper regulatory 
mechanism for addressing climate change. We've heard these 
arguments before. In fact, in 1982 the tobacco company R.J. 
Reynolds produced internal talking points about the social cost 
of smoking when Congressman Henry Waxman was holding hearings 
regarding the harm to the public's health from cigarette 
smoking. At the time, Representative Waxman said the annual 
smoking-related cost in lost productivity was $25.8 billion and 
$13.6 billion in annual medical costs. R.J. Reynolds said, 
quote, that ``attempts to establish a dollar value of so-called 
cost of smoking are ill-founded and unreliable,'' end quote.
    More than one decade later, in 1994, the tobacco company 
Philip Morris was producing glossy brochures to combat the 
growing evidence revolving around the harm of cigarette 
smoking. One was titled, quote, ``Debunking the Social Cost of 
Smoking,'' and an internal memo from Philip Morris said simply, 
``Philip Morris does not believe that smoking has been shown to 
pose any social cost on society.''
    So we're going to hear similar arguments today on the 
social cost of carbon emissions from fossil fuels, their impact 
on climate change. These arguments resonate loudly with the new 
Trump Administration, but they contradict the economic analysis 
and scientific evidence that supports the use of social cost of 
carbon.
    In a much-publicized recent memo, Dr.--or Thomas Pyle, the 
head of Trump's Department of Energy transition team, stated, 
quote, ``If the social cost of carbon were subjected to the 
latest science, it would certainly be much lower than what the 
Obama Administration has been using,'' end quote. And he 
suggested ending the use of it in federal rulemaking. The memo 
went on to describe plans to withdraw from the Paris Climate 
Agreement, eliminate the Clean Power Plan, increase federal oil 
and natural gas leasing, lift the moratorium on coal leasing--
in other words, more and more and more fossil fuels at greater 
cost to the environment.
    Mr. Chairman, climate change is real. Scientific evidence 
across the world, we think we are the only country in the world 
that doesn't--that has any internal disagreement about climate 
change. And as members of the Science Committee, we should be 
leading the fight to protect our nation against its impacts, 
and I hope my colleagues will be persuaded by the weight of 
evidence. The evidence becomes ever clearer with every passing 
day. And we will work together to promote policies that protect 
our future generations.
    Mr. Chair, I yield back.
    [The prepared statement of Mr. Beyer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Biggs. Thank you, Mr. Beyer.
    I now recognize the Chairman of the Full Committee, Mr. 
Smith, for his opening statement. Chairman Smith.
    Chairman Smith. Thank you, Chairman Biggs. And 
congratulations on becoming the Chairman of the Environment 
Subcommittee. I look forward to helping you restrain the EPA's 
out-of-control regulatory agenda.
    The EPA, along with other federal agencies, often bases 
their regulations on models and science not familiar to most 
Americans. Americans are led to believe that the EPA's 
regulations are based on the best science available. 
Unfortunately, this committee has discovered that that is not 
the case.
    The EPA's track record does not inspire trust. For example, 
the EPA routinely relies on nondisclosed scientific studies to 
justify its regulations, but how can Americans believe an 
agency that isn't being open and honest?
    Another little-known component of environmental regulations 
is the social cost of carbon. The EPA attempts to put a price 
on a ton of carbon emitted into the atmosphere. This term is in 
many of the EPA's regulations. However, like many of the 
Agency's determinations, it is often based on a one-sided 
political agenda.
    Many factors contribute to the value of the social cost of 
carbon. While multiple models are used to determine a value for 
carbon, the ones frequently used in regulations assume only a 
worst-case scenario for climate change impacts. Similar to 
climate models, which predict worst-case scenarios and are 
repeatedly proved wrong, the social cost of carbon used by 
federal agencies is also flawed.
    The federal government should not include faulty 
calculations to justify costly regulations. Examples would be 
the Clean Power Plan and standards used by the Department of 
Energy. Instead, it should eliminate the use of the social cost 
of carbon until a credible value can be calculated.
    Rushing to use unreliable calculations, such as the social 
cost of carbon, to justify a regulation is irresponsible and 
misleading. For instance, the EPA's Clean Power Plan would cost 
billions of dollars every year in return for a minimal benefit 
on the environment. In fact, the regulation would reduce global 
temperatures by only 0.03 degrees Celsius and limit sea level 
rise by only the width of three sheets of paper.
    One of the many components used to justify this rule is the 
social cost of carbon. This flawed value desperately attempts 
to justify the Agency's alarmist reasoning for support of the 
Clean Power Plan and other climate regulations. Agencies should 
rely on sound science, not flawed data. The fact that different 
models for the social cost of carbon exist and all have 
different values is a testament to how uncertain the science 
behind the value really is. For example, the social cost of 
carbon ranges from negative values to $37 per ton, which is the 
estimate used by government agencies under the Obama 
Administration. Before the EPA includes this value in 
rulemakings, the Agency should reassess how it is determined.
    Americans deserve credible science, not regulations based 
on data that is suspect and calculated to justify the EPA's 
climate agenda. Sound science and actual data should lead the 
way, not politically calculated social costs.
    Thank you, Mr. Chairman. I'll yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Biggs. Thank you, Chairman Smith.
    Let me introduce our witnesses. Our first witness today is 
Dr. Ted Gayer, Vice President and Director of Economic Studies 
and Joseph A. Pechman Senior Fellow at the Brookings Institute. 
Dr. Gayer received his bachelor's degree in mathematics and 
economics from Emory, and his master's degree and Ph.D. in 
economics from Duke University.
    Our next witness is Dr. Kevin Dayaratna, Senior 
Statistician and Research Programmer at the Heritage 
Foundation's Institute for Economic Freedom and Opportunities 
Center for Data Analysis. Dr. Dayaratna received his bachelor's 
degree in applied mathematics and mathematical physics from the 
University of California at Berkeley, his master's degrees in 
mathematical statistics and business management from the 
University of Maryland, and his Ph.D. in mathematical 
statistics from the University of Maryland.
    Our third witness today is Dr. Michael Greenstone, Milton 
Friedman Professor in Economics, the College, and the Harris 
School; Director of the Interdisciplinary Energy Policy 
Institute at the University of Chicago; and Director of the 
Energy and Environment Lab at University of Chicago Urban Labs. 
Dr. Greenstone received his bachelor's degree in economics at 
Swarthmore College and his Ph.D. in economics from Princeton.
    Our final witness today will be Dr. Patrick Michaels, 
Director of the Center for the Study of Science at the Cato 
Institute and contributing author to United Nations' 
Intergovernmental Panel on Climate Change, which was awarded 
the Nobel Peace Prize. Dr. Michaels received his bachelor's and 
master's degrees in biological sciences and plant ecology from 
the University of Chicago and his Ph.D. in ecological 
climatology from the University of Wisconsin at Madison.
    I now recognize Dr. Gayer for five minutes to present his 
testimony.

                TESTIMONY OF DR. TED GAYER, PHD,

        VICE PRESIDENT AND DIRECTOR OF ECONOMIC STUDIES

              AND JOSEPH A. PECHMAN SENIOR FELLOW

                    AT BROOKINGS INSTITUTION

    Dr. Gayer. Chairs Biggs, LaHood, and Smith; and Ranking 
Members Bonamici and Beyer; and members of the subcommittees, I 
appreciate the opportunity to appear here today to discuss the 
social cost of carbon.
    The social cost of carbon is a dollar estimate of the 
damages caused by a 1-ton increase in greenhouse gas emissions 
in a given year. It is a conceptually valid and important 
consideration when devising policies and treaties to address 
climate change, yet estimating the value of the social cost of 
carbon is an enormously complex and uncertain exercise.
    In 2009, the Obama Administration established an 
Interagency Working Group to develop a range of estimates for 
the social cost of carbon subsequently used by agencies to 
evaluate federal regulations. My focus is on the specific 
question of whether the social cost of carbon should account 
for the global or the domestic harm of a ton of greenhouse gas.
    In a world in which the United States and all the other 
major emitters of greenhouse gases adopted a coordinated set of 
policies to address climate change, then a global measure would 
be appropriate since greenhouse gases contribute to damages 
around the world no matter where they occur.
    But we don't live in such a world. Instead, in the United 
States we have opted for a suite of regulatory policies ranging 
from subsidizing lower carbon energy sources; mandating energy 
efficiency levels in buildings, vehicles, and household 
appliances; requiring transportation fuels to contain minimum 
volumes of different renewable fuels, and restricting emissions 
from electric utilities.
    Given the diversity of regulations directed at climate 
change, it is useful and important for the agencies to 
coordinate on a single measure of climate benefits. But the 
question is whether they should report and consider the 
benefits to U.S. citizens or to the world. The Interagency 
Working Group opted for a global measure.
    I believe the exclusive focus on a global measure runs 
counter to standard benefit cost practice in which only the 
benefits within the political jurisdiction bearing the cost of 
the policy are considers. It also seems at odds with the 
express intent of longstanding Executive orders and of 
authorizing statutes. For example, the main regulatory guidance 
document that has been in place for 20 years is Executive Order 
12866, which makes clear that the appropriate reference point 
for analyzing federal regulatory policy--policies is the U.S. 
citizenry, not the world.
    Similarly, when enacting the Clean Air Act, Congress stated 
that its purpose was to, quote, ``protect and enhance the 
quality of the nation's air resources so as to promote the 
public health and welfare and productive capacity of its 
population,'' end quote, which again suggests a focus on 
domestic benefits.
    The global measure is 4 to 14 times greater than the 
estimated domestic measure, which is significant. For example, 
for its proposed regulations for existing power plants, the EPA 
estimated climate benefits amounting to $30 billion in 2030. 
However, the estimated domestic climate benefits would have 
only amounted to $2 to $7 billion, which is less than EPA's 
estimated compliance cost for the rule.
    I believe that adopting a global measure for the benefits 
of a domestic policy would be justified if U.S. actions led to 
complete reciprocity from other countries. The question is 
whether efforts by the United States to regulate greenhouse 
gases might spur reciprocity by other countries to do so as 
well, generating domestic benefits that are 4 to 14 times as 
great as the direct domestic benefits to the U.S.-only policy. 
This is doubtful since the agency regulations taken under 
existing U.S. laws such as the Clean Air Act are not tantamount 
to treaty commitments that can establish a formal basis for 
other countries matching the efforts undertaken domestically.
    By using the global social cost of carbon, the agencies are 
claiming that their rules provide benefits that in fact largely 
accrue to foreign citizens. Of course, many Americans are 
altruistic and care about the welfare of people beyond our 
borders, but foreign aid decisions should be made openly and 
not hidden in an obscure metric used in domestic rulemaking.
    A global measure of the social cost of carbon is 
appropriate if the intent is to use it to support the 
development of a global system of reducing greenhouse gases, 
such as through a worldwide carbon tax. I favor a carbon tax 
for the United States that replaces regulations and relies on 
border tax adjustments to incentivize other major emitters to 
follow suit. But absent such an approach, for domestic agencies 
considering domestic regulations in which the costs are 
incurred domestically, a global measure deviates from standard 
practice and requires more scrutiny and justification than it 
has received to date. At the very least, agencies should report 
the expected domestic benefits and only separately and 
transparently report the expected foreign benefits of their 
actions informed by concrete evidence of reciprocity expected 
from other countries.
    Thank you.
    [The prepared statement of Dr. Gayer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Biggs. Thank you, Dr. Gayer.
    I now recognize Dr. Dayaratna for five minutes to present 
his testimony.

             TESTIMONY OF DR. KEVIN DAYARATNA, PHD,

          SENIOR STATISTICIAN AND RESEARCH PROGRAMMER,

                   CENTER FOR DATA ANALYSIS,

                 INSTITUTE FOR ECONOMIC FREEDOM

           AND OPPORTUNITY AT THE HERITAGE FOUNDATION

    Dr. Dayaratna. Chairman Biggs, Ranking Member Bonamici, and 
other Members of the Subcommittees, thank you for the 
opportunity to testify about the social cost of carbon.
    My name is Kevin Dayaratna. I'm the Senior Statistician and 
Research Programmer at the Heritage Foundation. The views I 
express in this testimony are my own and should not be 
construed as representing any official position of the Heritage 
Foundation.
    One of the primary metrics that the previous Administration 
had used to justify agenda regarding energy policy--justify 
regulatory--its regulatory agenda regarding energy policy is 
the social cost of carbon, which is defined as the economic 
damages associated with a metric ton of carbon dioxide 
emissions summed across a particular time horizon.
    There are three primary statistical models that the Obama 
Administration's Interagency Working Group had used to estimate 
the SCC, the DC. model, the FUND model, and the PAGE model. My 
colleagues and I have used the DC. and FUND models, testing 
their sensitivity to a variety of important assumptions. Our 
work, published both at Heritage, as well as in the peer-
reviewed literature, as repeatedly illustrated that while these 
models might be interesting for academic exercises, they can be 
readily manipulated by regulators and bureaucrats.
    In particular, as with any statistical model, they are 
dependent on various assumptions. I'd like to discuss three 
assumptions regularly manipulated to achieve predetermined 
outcomes: the choice of a discount rate, a time horizon, and 
the specification of an equilibrium climate sensitivity 
distribution.
    The first easily manipulated assumption is the discount 
rate. In this type of cost-benefit analysis, the discount rate 
should reflect the rate of return on generally achievable 
alternative investments. The IWG had run these models using 
2.5, 3, and five percent discount rates despite the fact that 
OMB guidance in circular A-4 had specifically stipulated that a 
seven percent discount rate be used as well.
    At Heritage, we re-estimated these models using a seven 
percent discount rate and noticed drastic reductions to the 
SCC. In 2020, for example, according to our recent analysis of 
the DC. model published in the peer-reviewed journal Climate 
Change Economics, under a three percent discount rate, the SCC 
is estimated to cost $37.79 per ton, while under a seven 
percent discount rate, it is estimated to be $5.87, an 84 
percent reduction. The higher estimates previously found by the 
IWG can enable policymakers to justify unnecessary regulations 
and taxes on the economy.
    The second easily manipulated assumption is the 
specification of a time horizon. It is close to impossible to 
forecast what the economy will look like decades into the 
future. Foolishly, these models attempt to make projections not 
decades but rather three centuries into the future. In my work 
at Heritage, I have changed the time horizon to a significantly 
shorter but still unrealistic time horizon of 150 years into 
the future. With the DC. model, we find that these results 
plummet by 25 percent in some instances.
    The third readily manipulated variable is the model's 
equilibrium climate sensitivity, or ECS, distribution, 
quantifying the Earth's temperature response to a doubling of 
carbon dioxide concentration. My colleague Dr. Pat Michaels 
will go into this in more detail, but the IWG used an ECS 
distribution that was published ten years ago in the journal 
Science. Since then, a number of newer ECS distributions have 
been published suggesting lower probabilities of extreme global 
warming.
    Using the more up-to-date ECS distributions generate 
significantly lower estimates of the SCC. In our peer-reviewed 
work, we found that, as a result of updating the ECS 
distributions, the results drop by as much as 197 percent under 
some circumstances. Inflated estimates of climate sensitivity 
drive up the SCC, which can become manifested in unnecessary 
regulations.
    Finally, the unexplored issue here is are there any 
benefits associated with carbon dioxide emissions? The answer 
is surprisingly yes. The FUND model actually allows for 
negative SCC, meaning a positive outcome. In fact, under some 
assumptions, there are actual substantial probabilities of 
negative SCC, meaning increased CO<INF>2</INF> fertilization, 
leading to increased agriculture and forestry yields.
    Moreover, if one were to take the IWG's interpretation of 
these models seriously and implement the associated 
regulations, there would be significant damage to the economy. 
In particular, our analysis finds that by 2035 the country 
would experience an average employment shortfall of 400,000 
lost jobs, a marked increase in electricity prices, and an 
aggregate $2.5 trillion loss in GDP.
    Our analysis using the model for the assessment of 
greenhouse gas-induced climate change has found that these 
devastating impacts would be accompanied by insignificant 
changes and less than 2/10 of a degree Celsius in temperature 
mitigation and less than 2 centimeters of sea level rise 
reduction.
    In conclusion, the SCC is a broken tool for regulatory 
policy and taking it seriously would provide significant harm 
and little environmental benefit.
    Thank you for your attention, and I look forward to your 
questions.
    [The prepared statement of Mr. Dayaratna follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Chairman Biggs. Thank you, Dr. Dayaratna.
    I now recognize Dr. Greenstone for five minutes to present 
his testimony.

           TESTIMONY OF DR. MICHAEL GREENSTONE, PHD,

            MILTON FRIEDMAN PROFESSOR IN ECONOMICS,

              THE COLLEGE, AND THE HARRIS SCHOOL;

               DIRECTOR OF THE INTERDISCIPLINARY

      ENERGY POLICY INSTITUTE AT THE UNIVERSITY OF CHICAGO

                AND THE ENERGY & ENVIRONMENT LAB

            AT THE UNIVERSITY OF CHICAGO URBAN LABS

    Dr. Greenstone. Thank you, Chairmen Biggs and LaHood, 
Ranking Members Bonamici and Beyer, and Members of the 
Subcommittees, for inviting me to speak today.
    My name is Michael Greenstone, and I'm the Milton Friedman 
Professor in Economics and Director of the Energy Policy 
Institute at the University of Chicago.
    The social cost of carbon is a monetized value of the 
damages from the release of an additional ton of 
CO<INF>2</INF>. This means that it can be used to determine the 
benefits of regulations that reduce CO<INF>2</INF> emissions. 
Indeed, these benefits can then be compared to the costs that 
regulations impose to determine whether the regulation is 
beneficial or not.
    In 2009, while working in the Obama Administration, Cass 
Sunstein and I convened and co-led an Interagency Working Group 
to determine a government-wide value for the social cost of 
carbon. Ultimately, the Interagency Working Group determined a 
central estimate of $21 per metric ton. That estimate has since 
been revised to reflect scientific advances and is now about 
$36.
    The approach has been judged valid. Last August, the 
Federal Court of Appeals rejected a legal challenge to the 
metric. Further, the General Accounting Office has said that 
the working group's processes and methods reflected key 
principles that ensured its credibility: It used consensus-
based decision-making, relied largely on existing academic 
literature and models; and disclosed limitations and 
incorporated new information by considering public comments and 
revising the estimates as updated research became available.
    Indeed, the social cost of carbon's credibility is 
underscored by the fact that it has been adopted by the 
governments of California, Illinois, Minnesota, Maine, New 
York, and Washington State, not to mention Canada and Mexico.
    Before concluding my testimony today, I would like to 
address two frequent critiques of the social cost of carbon. 
One such critique is that the real discount rates used--2.5, 3, 
and 5 percent--are too low. Why is a discount rate so 
important? If we choose a discount rate that is too low, then 
we're going to pay too much for mitigation efforts today. If 
instead we choose one that's too high, then we will impose 
higher climate damages on our children and grandchildren than 
we intend.
    Economic theory tells us that we'll be best off if the 
discount rate is equal to the market interest rate from 
investments that match the structure of payoffs that climate 
mitigation provides. If we thought climate damages were likely 
to be imposed consistently and predictably over time, then it 
would be appropriate to set a discount rate equal to something 
like the average return for the stock market. That's about 5.3 
percent over the last 50 years.
    But, on the other hand, if we think climate damages could 
be unpredictable and that tail risk points towards major 
losses, then markets, markets themselves, tell us to use a 
lower discount rate. Consider the case of gold. Its average 
return is only about three percent, yet people hold it as an 
investment. Why is that? The reason is that it pays off 
dramatically during infrequent episodes of economic distress. 
For example, during the Great Recession, gold outperformed the 
stock market by 67 percent.
    When one considers the possibility of large temperature 
changes for given increases in emissions, great sea level rise 
in relatively short periods of time, the possibility of 
physical tipping points or human responses to these changes 
that include mass migration, then the case for using a low 
discount rate to determine the social cost of carbon appears 
strong.
    In addition to this conceptual reason to prefer low 
discount rates, the decline in global interest rates, so 
another market-based reason, since the mid-1980s provides 
another reason. The three percent real discount rate that has 
been a cornerstone of regulatory analysis since 2003 draws its 
justification from the fact that it was roughly equal to the 
real rate of return on long-term government debt at that time.
    However, the world has changed. Rates are now much lower 
and indeed the comparable rate is now probably below two 
percent. Put another way, capital markets are trying to tell us 
to use discount rates that are lower than those currently being 
used to determine the social cost of carbon.
    A second criticism of the social cost of carbon is that it 
reflects global costs from emissions, but the United States 
should only be concerned with domestic damages. However, this 
criticism misses an important point that the goal of policy is 
to maximize net benefits to Americans and that recognizing 
foreign damages is likely to increase net benefits.
    Why is this the case? It's because each ton of CO<INF>2</INF> 
emitted outside the United States inflicts damages on us. Thus, 
we benefit when China, India, the European Union, and others 
reduce their emissions. It absolutely strains credibility to 
assume that these countries' emissions cuts would be as large 
as if we reverted to a social cost of carbon based only on 
domestic damages.
    In many respects, the Paris Climate Agreement, where nearly 
200 countries agreed to take action on carbon emissions, is a 
validation of the importance of treating climate change is a 
global problem.
    To summarize, society needs to balance the cost to our 
economy of mitigating climate change with the coming climate 
damages. Wishing that we did not face this tradeoff will not 
make it go away. Ultimately, we will be better off if a social 
cost of carbon based on sound science, economics, and law, 
continues to serve as a lynchpin of regulatory policy. Thank 
you.
    [The prepared statement of Mr. Greenstone follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairman Biggs. Thank you, Dr. Greenstone.
    I'll now recognize Dr. Michaels for five minutes to present 
his testimony.

       TESTIMONY OF DR. PATRICK MICHAELS, PHD, DIRECTOR,

        CENTER FOR THE STUDY OF SCIENCE, CATO INSTITUTE;

             CONTRIBUTING AUTHOR TO UNITED NATIONS

           INTERGOVERNMENTAL PANEL ON CLIMATE CHANGE

                    (NOBEL PEACE PRIZE 2007)



    Dr. Michaels. May we have the first image? Thank you.
    [Slide.]
    Dr. Michaels. Mr. Chairman, Ranking Members, Members of the 
Subcommittees, thank you for inviting my testimony on 
scientific problems relating to the current calculation of the 
social cost of carbon or SCC. I am Patrick J. Michaels, 
Director of the Center for the Study of Science at the Cato 
Institute. Prior to that, I was a Research Professor of 
Environmental Sciences at University of Virginia for 30 years.
    A year-and-a-half ago I testified to the Committee on 
Natural Resources that the Obama Administration's calculations 
of the SCC were in contravention of a large and growing body of 
scientific literature--next image----
    [Slide.]
    --demonstrating that the sensitivity of temperature to 
human emission of carbon dioxide is not nearly as large as was 
previously thought. And more important, the chance of a high-
end warming has greatly diminished. Since then, the evidence 
has grown stronger.
    Climate sensitivity is the amount of net warming one gets 
for doubling atmospheric carbon dioxide. It also roughly 
approximates the forecast for surface warming for the 21st 
century. The Obama Administration used a sensitivity 
specification by Roe and Baker, which is the top line there, 
that had a mean sensitivity of 3.0 degrees C and a 5 to 95 
percent confidence limit of 1.7 to 7.14 degrees C, a very large 
number.
    Beginning in 2011, all this work down here, a growing body 
of the scientific literature has yielded 32 new estimates of 
the sensitivity generated by more than 50 researchers from 
around the world with a mean sensitivity of 2 degrees C and a 5 
to 95 percent confidence limit of 1.1 to 3.5 degrees C.
    The large distributions of warming--next image--
    [Slide.]
    --used in Roe and Baker resulted in large part because of 
extremely wide range of estimates of the cooling effects of 
sulfate aerosols, another human emission. These were 
dramatically narrowed by researchers Nick Lewis and Judith 
Curry of Georgia Tech, which greatly reduced the sensitivity, 
as you can see here, and the spread around that sensitivity.
    As my colleague Kevin Dayaratna has shown, the newer more 
reality-based estimates result in a dramatic lowering of the 
SCC. Next image.
    [Slide.]
    Let's now have a look at how well those climate models that 
were used to calculate the previous Administration's SCC are 
doing. This illustration is a further update of an analysis 
initially presented in the testimony of John Christy in 2015 
with data that ended in 2014. The uptick in observed warming at 
the end of the record is an apparent improvement between the 
models and reality. But it is not. Instead, it is the 2015/2016 
El Nino.
    Next image.
    [Slide.]
    And that spread is likely to widen again in recent years, 
as you can see from surface temperatures here that they have 
dropped back down very close to their previous El Nino value.
    [Slide.]
    Next is a chart of predicted trends and tropical 
temperatures measured vertically. This is where the largest 
integrated warming on Earth is forecast to occur. The green 
line on the left is reality, which is--generally shows two to 
three times less warming than has been predicted. At the top of 
the active weather zone around here, the forecast is 
approximately seven times less than--or seven times more than 
is what is being observed. To deny this reality is to deny 
science.
    It is the vertical temperature distribution that largely 
determines daily weather. If this is forecast incorrectly, then 
any subsidiary forecast of surface weather regimes are of 
little to no value. To deny that is to deny science.
    There is another systematic error on the previous 
calculations of the SCC. We live on a planet that is becoming 
greener because of the direct--next image----
    [Slide.]
    --physiological effects of increasing carbon dioxide on 
plant photosynthesis. A massive survey of the scientific 
literature by Dr. Craig Idso shows this caused a $3.2 trillion 
increment in agricultural output from 1961 through 2011. My 
colleague Mr. Dayaratna has shown that a more realistic 
sensitivity in carbon dioxide fertilization can result in a 
negative SCC or a net external benefit from the production of 
carbon dioxide.
    In closing, I provide you this image of the greening of our 
luke-warming home planet, as taken by NASA satellites. Where 
there are dots, the changes are statistically significant. Note 
that the greatest increases, the ones in pink, are in the 
margins of the world's deserts and the tropical rainforest, 
places we all feared for. To acknowledge this is to affirm 
reality.
    Thank you very much for inviting my testimony.
    [The prepared statement of Mr. Michaels follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Biggs. Thank you. I thank each of the witnesses 
for their testimony today. The Chair recognizes himself for 
five minutes.
    Dr. Gayer, because the Interagency Working Group ignored 
Office of Management and Budget guidelines and used a global 
perspective in determining the SCC, agencies issue regulations 
with substantial domestic cost based on benefits to non-
Americans. In what way does this global perspective method of 
calculating the SCC potentially mislead the public?
    Dr. Gayer. So I'll answer in two parts. First, the--it's--
the models that are discussed here today are global models, so 
it's inordinately difficult for them to come up with domestic 
estimates, but the interagency review--interagency process did 
kind of benchmark it to 4 to 14 times differential. So the 
domestic benefits are 1/4 to 1/14 what the global benefits are 
based on the models that they used.
    And just to clarify, based on comment earlier, I think the 
approach should be taken, if it is going to use a global 
measure, it is not a zero-one, right? You could use a domestic 
measure, you can use a full global measure. Michael referred to 
straining credibility to assume that there's no global 
benefits. I think it strains credibility to suggest that 
there's going to be full global benefits, meaning if we act, 
the rest of the world will act instantaneously as well.
    So to the extent that that doesn't happen and we're using a 
domestic measure, we're overestimating the benefits. And the 
example I gave with the Clean Power Plan on the climate benefit 
side, it's enough to tip the scales that the costs outweigh the 
benefits.
    Chairman Biggs. And, Dr. Gayer, just to follow up, do 
agencies have a duty to inform the American public of the 
domestic benefits in a cost-benefit analysis for federal 
regulations?
    Dr. Gayer. Yes. And those are the OMB guidelines. As I 
suggested at the end, I think I'd be less kind of worked up 
over it if they did both, but they should lead with the 
domestic measure.
    Chairman Biggs. Dr. Dayaratna, what are your biggest 
concerns about using the SCC in policymaking?
    Dr. Dayaratna. Thank you for the question, Congressman.
    So there are a variety of issues with these SCCs, with 
these IAMs associated with these SCCs. The most fundamental 
issue is that they are extremely sensitive to very, very 
reasonable changes in assumptions. As I was referring to, the 
time--using the time horizon to 300 years, if you shift that to 
150 years, which is still unrealistic, you get a drastically 
different estimate of the SCC.
    The discount rate, if you use a seven percent discount 
rate, as mandated by the OMB, under the FUND model you will get 
a negative social cost of carbon. And the policy implication 
there would be that we shouldn't be taxing carbon dioxide 
emissions but subsidizing it.
    Then lastly, with the equilibrium climate sensitivity 
distributions, there--the ECS distribution used has--was 
published ten years ago, and it's not even based on empirical 
research. More up-to-date ECS distributions also will result in 
a substantially lower and even potentially negative SCC 
depending on the model that you use.
    So with these results all over the map, I do not understand 
how policymakers can garner any meaningful advice for 
regulatory policy.
    Chairman Biggs. So just for the laymen who are here, what 
does the negative value of the SCC kind of connote? I mean, 
what are we really saying there when we say negative value?
    Dr. Dayaratna. Basically, in a nutshell, in general when 
people think of SCC they talk about economic damages associated 
with carbon dioxide emissions. When those damages are negative, 
that implies that the SCC actually provides benefits. And the 
result of that is, you know, mostly increased photosynthesis, 
agriculture, and so forth. But that would suggest that 
increased CO<INF>2</INF> is actually good for the planet.
    Chairman Biggs. Thank you. Dr. Michaels, in 2015 the 
Interagency Working Group released a report to the public 
comments on the determination of the social cost of carbon. You 
were one of the commenters. What is the significance of having 
a comment period in the process of developing an SCC? And did 
the interagency group adopt any of these comments?
    Dr. Michaels. No, they did not, and many of the comments 
were well-reasoned based upon recent peer-reviewed literature 
reinforcing the notion that the sensitivity of temperature that 
was used in the models was too high. Nature is trying to tell 
us something. If you look at that satellite image that I showed 
earlier, you can see that the observed warming in the lower 
atmosphere is about half of what was predicted. If you look in 
the tropics, you can see that the observed warming in the 
vertical in the tropics is about half, actually maybe even a 
little bit less than what was predicted. All these things point 
to a consistent story. About twice as much warming was 
predicted as is going to occur.
    Now, the U.N.'s mean sensitivity is 3.2 degrees Celsius. 
Why don't we settle this out at 1.6, and everybody can go home 
because we're going to meet the 2 degree guideline with 
business as usual, declare victory, and let's go on.
    Chairman Biggs. So when the report refused to adopt any of 
the comments, what does that say to the validity of the report 
and its objectivity?
    Dr. Michaels. I would say that they were wedded to a point 
of view, and I understand. I live in Washington. I understand 
the pressures in this town. If anyone gave an official answer 
that this was not a problem, I hate to say we probably wouldn't 
be chatting here so amiably because nobody would care.
    Chairman Biggs. Thank you, Dr. Michaels.
    I recognize Ranking Member Bonamici for questions.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Dr. Greenstone, it's been suggested that the Interagency 
Working Group operated under some sort of veil of secrecy while 
developing the social cost of carbon. The GAO, in a 2014 
report, found that many of the social cost of carbon estimates 
were developed with input from the public. Now, you and Cass 
Sunstein convened and led this Interagency Working Group. So 
did the Interagency Working Group hear concerns that were 
raised by the other witnesses today, and how were those 
considered in the process? And can you also talk about the role 
that public comment played in the development of the social 
cost of carbon?
    Dr. Greenstone. Yes. Thank you, Congresswoman, for letting 
me talk about that. So it's probably worth going back in time a 
little bit. The process--the social cost of carbon was 
developed in a very methodical way. The--we convened and led 
this group that met many times and it drew expertise from 
agencies across the Administration. We then first put out--the 
first put-out was an interim number that was put out for public 
comment. Then, the final number of $21 was released in 2010. 
That has been attached to, I think, approximately 80 different 
rules. Public comment was received on that through that 
process. And then the Administration later I think in 2013 just 
put it out for public comment by itself.
    So there was tremendous effort to engage the public. There 
was tremendous effort to draw expertise from all corners of 
government, and it was a highly technical exercise that led to 
what we perceive to be and I believe to be describing the 
frontier of science.
    Now, it is possible that some of my fellow witnesses feel 
spurned, and I think that's why we often use peer-reviewed 
literatures to determine what's true and what's not true. And I 
think just because their ideas were not judged to be on the 
frontier does not mean that the whole process was flawed.
    Ms. Bonamici. Thank you. And, Dr. Greenstone, just because 
a comment is made and received but not included does not mean 
it was not considered, correct?
    Dr. Greenstone. Indeed.
    Ms. Bonamici. So, Dr. Greenstone, Dr. Dayaratna said that 
if the social cost of carbon was implemented, the country would 
suffer--I believe it was--he said disastrous economic 
consequences, including a loss of jobs and income and an 
increase in electricity prices. I'd like you to address what 
would happen if indeed the Trump Administration has been 
promoting energy policies without regard to what the policies 
may do to the environment. So will you explain what would 
happen if we were to roll back regulations designed to reduce 
greenhouse gas emissions, if there's an economic price to pay 
for undermining the science supporting the social cost of 
carbon and environmental regulations? And also, how would other 
countries like China or India respond if the United States 
retreats from or even appears to be retreating from its 
obligations to address greenhouse gas emissions?
    Dr. Greenstone. Yes. So I think Dr. Dayaratna is making a 
very important point, which is that regulations have costs, so 
we should all agree on that and we should--we can move on.
    On the flipside of that is that regulations to reduce 
carbon emissions have benefits, and there's--it's a tradeoff, 
like many things in economics. There's no free lunch. And, you 
know, if we were to roll back regulations on climate emissions 
or carbon emissions, what we would--the world would face and 
certainly the United States would face higher temperatures; it 
would face sea level rise. It would face a variety of risks 
that would impose costs on us, our children, and our 
grandchildren.
    And let me just also return--you also asked, Congresswoman, 
about how it would be perceived globally if we reverted to a 
domestic social cost of carbon, and I think that's an important 
question because it's not--what--a narrative here about using 
the domestic damages only I think misses that this is an 
international problem. And in particular when--as I said in my 
testimony, when China or India or the EU reduces emissions, it 
gives great benefits to the citizens of the United States. And 
to not account for that leverage puts us at risk of higher 
costs.
    And so I think the case for reverting to a domestic-only 
damage is essentially asking the rest of the world to ramp up 
their measures.
    Ms. Bonamici. And finally, I know the recent National 
Academy of Sciences report ``Valuing Climate Damages: Updating 
Estimation of the Social Cost of Carbon'' provides some 
recommendations to the Interagency Working Group on how to 
improve the methodology. Do the recommendations for an updated 
estimation undermine the current working group values of the 
social cost of carbon or would using the Academy's 
recommendation methodology invalidate existing regulations----
    Dr. Greenstone. No, the----
    Ms. Bonamici. --that use the----
    Dr. Greenstone. Thank you for that question. I think rather 
than have people cherry-pick particular features, which seems 
to be what's happening today, that they dislike or that they 
know can change the social cost of carbon, a methodical and 
scientific approach would be to follow the National Academy of 
Sciences' recommendations. And indeed, in the Interagency 
Working Group, we suggested that, as science advanced, the 
numbers should be updated periodically. And the National 
Academy of Sciences' report gives a terrific blueprint that 
would allow for updating.
    And, you know, it is true things have advanced since 2009 
and 2010. Our understanding about the impacts of climate 
change, for instance, on human mortality have greatly advanced. 
And I expected a--following NAS's blueprint would allow for a 
refresh.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Biggs. Thank you.
    Dr. Michaels, you wish to respond?
    Dr. Michaels. Yes, I think it's time to actually take a 
good, clear look at the effect of policies with regard to the 
Paris agreement. The EPA uses a model called the Model for the 
Assessment of Greenhouse Gas-Induced Climate Change. And if 
you're following, the acronym for that model is MAGIC. It is 
the standard tool that is used. And you can put in emissions 
scenarios, climate sensitivity, and come out with a temperature 
saving as a result of any given policy.
    So let's assume a sensitivity that is probably too high, 3 
degrees Celsius, and let's reduce United States' emissions to 
zero right now through the year 2100. The amount of warming 
that would be prevented would be between 1/10 and 2/10 of a 
degree Celsius.
    Now, let's talk about China and India candidly rather than 
merely using adjectives and adverbs. The Chinese emission 
commitments at the Paris agreement are nothing but business as 
usual. It has long been recognized as their economy matures 
that their emissions will stabilize around 2030, and that is 
precisely what they said they would do.
    The Indian commitment is less than nothing. As economies 
mature, the amount of CO<INF>2</INF> you emit per unit GDP 
declines. It's called an increase--or a decrease in emissions 
intensity. They vowed in Paris to decrease their emissions 
intensity less, underline less, than the business-as-usual 
scenario for the country of India.
    So really what we do doesn't mean anything to these other 
countries because they're not doing anything. Thank you.
    Chairman Biggs. I recognize the Chairman of the Oversight 
Committee, LaHood, for his five minutes of questions.
    Mr. LaHood. Thank you, Mr. Chairman. I want to thank all 
the witnesses for being here today and your valuable testimony.
    Dr. Gayer, I wanted to ask you, you know, as we try to 
better understand what Congress and the Trump Administration 
can do to make agency rulemaking based on more accurate cost-
and-benefit information, I do have concerns--I'm not sure 
whether you're familiar--last year, the Seventh Circuit Court 
of Appeals, the federal jurisdiction, ruled in a unanimous 
decision basically against the petitioners, which was an 
organization by the name of Zero Zone, which is an air-
conditioning/heating unit that sued the Department of Energy 
based on the rulemaking process. And that unanimous decision, 
their conclusion--and I'm summarizing here--but the DOE 
conducted a cost-benefit analysis that is within the statutory 
authority and is supported by substantial evidence. Its 
methodology and conclusions were not arbitrary or capricious.
    And I guess do you have concerns that the court did not 
criticize this process in this court case?
    Dr. Gayer. Thank you for the question.
    I feel like I'm in a funny position in many ways. If you 
lock me and Michael Greenstone in a room, I'm not sure that 
we'd come up with a very different policy outcome. But I think 
the process of getting there matters, and I think the 
regulatory process that was used did involve a lot of 
assumptions and complexities that I would say lean into 
arbitrary considerations.
    That's not to say I think that the social cost of carbon, 
this true number out there is negative; I don't. And as I 
alluded to in my testimony, I do think we should act. I just 
don't think we should act through kind of the mechanisms of 
existing statutes through regulations that take a very 
piecemeal approach and to my mind sort of put a veneer of 
scientific legitimacy on something that I think is highly, 
highly uncertain. So that's a longwinded way of me getting at 
your question, so I apologize.
    Yes, I'm concerned when the courts disagree with me to some 
degree. I don't know what--you know, in the kind of motivation 
of your question, we are existing in a world where all the 
action on climate is happening under existing statutes and 
therefore do--and going through the agencies. And so to the 
extent that there's too much focus on global, not domestic, I 
do think it's addressable from Office of Information and 
Regulatory Affairs and guidance given to the agencies about how 
they should conduct this.
    And I don't want to speak for other people on the panel, 
but I think there is, you know, a lot of discretion in the 
choices that were made in how we come up with these numbers. I 
don't think it was kind of rigged or deception or manipulated. 
I just think that people disagree. And I think with the new 
Administration and new OMB and OIRA Director, they can come to 
a different determination of how much to weigh global versus 
domestic, as well as issues like discount rates and others, 
which is a highly difficult, complex, in many ways ethical 
question.
    Mr. LaHood. Well, thank you for that.
    And just as a follow-up, I think in your opening testimony 
you went through kind of, you described it as a suite of 
regulatory policies that we put in place domestically that, you 
know, have worked fairly well with reducing some of those 
environmental concerns that people talked about.
    In terms of a public policy position here in Congress on 
what we should do, beyond what you said with working in the 
Administration, any recommendations for us here in terms of 
legislation and what we should look at to address this problem?
    Dr. Gayer. Well, I think I--you know, I have an 
iconoclastic view perhaps on this. I first approached this 
problem because I thought a lot of these regulations--not 
because I didn't think climate change was a problem but I 
thought these regulations were much too costly way to go about 
doing it. And in the analysis that they were using to justify 
it, I thought they were in some sense making decisions I 
disagreed with to make them look better than they are.
    I testified actually at the House a few years ago. A lot of 
these regulations are justified not on environmental grounds 
but because they purport to save consumers money because the 
underlying thesis there is that consumers are kind of 
irrational in their consumption decisions, so therefore, you 
know, the regulator has to come and make the decision for them, 
which is to my mind kind of a dangerous assumption and 
shouldn't be used to justify rules.
    I have the kind of minority opinion on what should be done, 
but I think it should go through Congress. I, as I said before, 
favor kind of a trade for a carbon tax on one side that's 
revenue-neutral, meaning affording a tax cut and also lighter 
regulations so that we're not going to the regulatory approach, 
as we currently have been.
    Mr. LaHood. Thank you. Those are all my questions.
    Chairman Biggs. Thank you.
    I recognize Mr. Beyer for five minutes.
    Mr. Beyer. Yes, Thank you, Mr. Chairman, very much.
    Thank you all very much for being here. It's fun to have 
three economists and mathematicians, which we don't often get 
and a bona fide Ph.D. climatologist. And I want to thank all of 
you for recognizing that climate change is in fact real. You 
may have different notions of is it as fast as it was, but this 
is a great leap forward for the Committee and for America.
    And I'm particularly pleased that Dr. Greenstone is the 
Milton Friedman Professor of Economics, which should make all 
of my Republican friends very comfortable and happy. And I 
thank Dr. Gayer for the quote that says that ``The social cost 
of carbon is a conceptually valid and important consideration 
when devising policies and treaties to address climate 
change.''
    Dr. Greenstone, the two things that have come up again and 
again--in fact, our Chairman's opening statement was, number 
one, this whole notion of the appropriate discount rate. And 
you said--you quoted the appropriate discount rate comes down 
to a judgment about whether climate change involves a 
substantial risk of being disruptive. Now, the OMB has a 
circular that says we should use seven percent. Why the 
decision to ignore the seven percent. Can you tell us simply 
again why we would choose a number like three percent rather 
than a 7?
    Dr. Greenstone. Yes, thank you for your question, Mr. 
Congressman.
    So the discount rate is, as Dr. Gayer mentioned, it's a 
very tough issue. With respect to climate change or with 
respect to any public investment, what one would like to do is 
to use a discount rate where--that reflects an interest rate 
from the market where the payoffs from that investment are 
similar to the payoffs from climate mitigation.
    And if you think--when you start to think about what 
climate change might offer, and a lot of it is unknown--as you 
put it, it could be very disruptive--that would tend to push 
people to lower discount rates and lower interest rates. And as 
I said in my testimony, the example of gold is really a good 
one in the sense that people are willing to hold gold. It has a 
very low mean rate of return of about three percent, but the 
reason they're willing to hold it is because it pays off when 
times are bad. And so if we end up with a bad state of the 
world with respect to climate, I think that would push us to 
having--wish we'd used the low discount rate.
    It's also worth noting that we're having a somewhat 
artificial discussion about the 3 and seven percent. Those were 
set in 2003 when global capital markets looked extraordinarily 
different than they do today. If we were to instead use what 
global capital markets are trying to tell us now, the three 
percent number would very likely be below two percent. That is 
that's the return on a long--on a long-term government bond. 
That is a real return. The real return is probably less than 
two percent to be honest. And there--the seven percent number 
would also be much lower as well.
    So, ultimately, we chose to go with 3 and five percent to 
reflect the character of the climate problem.
    Mr. Beyer. Okay. Great. Thanks.
    The second half of that is that there are apparently--
according to the majority memo--longstanding OMB guidance to 
only consider the domestic cost-benefits. And Dr. Gayer I think 
went on pretty eloquently about, you know, we're considering 
what's happening around the world, but they're not necessarily 
affecting their policies. How would you justify the notion of 
using a global measure of the impacts?
    Dr. Greenstone. Yes. So actually--so let's establish that 
I'm not a lawyer, and how nice it was to hear that there was--
people were interested in having economists in the room. So 
that was a surprise. But my understanding of OMB circular A-4, 
which is what we're talking about, is that it leaves open the 
option to look at global effects, and that was the path that we 
drove on. Now, I'm not the legal expert.
    The second thing that I want to come back to, and I thought 
it was very interesting. I saw some light or--between mine and 
Dr. Gayer's testimony there, which is that I think to do an 
analysis where--of the benefits of carbon regulations that 
ignore the leverage from emissions reductions inside the United 
States, and that leverage comes in the form of emissions 
reductions in other countries I think is an extraordinarily 
incomplete analysis. And using the global number is one way and 
I think a valid way to reflect that leverage.
    Mr. Beyer. Thank you. Thank you very much.
    Dr. Michaels, congratulations on your Nobel Prize.
    Dr. Michaels. I didn't say that. That went to the group.
    Mr. Beyer. Okay. Well, still.
    Dr. Michaels. People there, certainly not to the worker 
bees.
    Mr. Beyer. You know, so it was the group that came up with 
the two percent target I think----
    Dr. Michaels. Two degree target.
    Mr. Beyer. Two degree target, two degree target.
    Dr. Michaels. That was----
    Mr. Beyer. Now you're thinking that we're going to be more 
like 1.6. Will you be part of the IPCC going forward? And will 
they come to a 1.6----
    Dr. Michaels. The----
    Mr. Beyer. --consensus in the next couple of years?
    Dr. Michaels. The numbers that I have always given in my 
decades of testifying in both the House and the Senate are all 
within the range of the IPCC consensus so there's nothing new 
here.
    Mr. Beyer. Okay. Great. Thank you very much.
    Mr. Chairman, I yield back.
    Dr. Greenstone. Can I just add one----
    Chairman Biggs. Thank you.
    Dr. Greenstone. I believe the IPCC----
    Chairman Biggs. Dr. Greenstone, please.
    Dr. Greenstone. --is from 1.5 to 4 or is it 1.5 to----
    Dr. Michaels. Yes, I believe 1.6 is in there.
    Dr. Greenstone. I think you're right at the bottom of the 
range, yes, but I think the IPCC's consensus is actually--
you're right at the bottom of that range.
    Chairman Biggs. Thank you. I recognize----
    Dr. Greenstone. Just making sure we're all on the same 
page.
    Chairman Biggs. I recognize Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Dr. Dayaratna, let me address my first question to you, and 
it is this: Do you feel that the social cost of carbon is based 
upon legitimate science or is it based upon arbitrary figures 
and subjective reasoning?
    Dr. Dayaratna. That's a very interesting question, so thank 
you, Congressman. In terms of the science, so as, you know, Pat 
and I both alluded to, the ECS--the equilibrium climate 
sensitivity distribution that is implemented in these models by 
the IWG has--was published ten years ago in the journal 
Science. That is a whole decade ago, and it is not even 
empirically estimated. It was calibrated to a priori 
assumptions that the IWG wanted to use regarding climate 
change.
    Now, if you look at the more recent distributions, you will 
notice significantly lower probabilities of extreme global 
warming. So what ended up happening was that using this 
outdated distribution, there was an overstated probability of 
extreme global warming, and that gets manifested in higher 
estimates of the SCC. So basically, the SCC estimates were 
essentially beefed up.
    Chairman Smith. Okay. Thank you.
    And, Dr. Michaels, are there benefits to carbon emissions? 
And if so, should they be factored into the social cost?
    Dr. Michaels. Well, if you're going to factor costs, you 
should factor benefits, and the increment just from direct 
carbon dioxide fertilization for agricultural production is 
about $3 trillion from 1961 through 2011. But more importantly, 
the satellite data shows a remarkable greening of the planet 
Earth, and the illustration that I showed earlier is remarkably 
reassuring because the massive greenings, the largest greenings 
are occurring in the margins of the great desert. The Sahelian 
region in Africa that you and I were taught in school this is 
desertifying and it will never come back. The tropical 
rainforest, the lungs of the Earth, have the largest increase 
in greening on the planet, all brought to you by carbon 
dioxide. So, yes, you should factor those things in I would 
think. Thank you.
    Chairman Smith. Okay. Thank you, Dr. Michaels, for that.
    One other question. What are some important climate change 
factors that are not accounted for in the social cost?
    Dr. Michaels. Oh, God. How many hours do I have to answer 
that?
    Chairman Smith. How about a minute-and-a-half but----
    Dr. Michaels. Okay.
    Chairman Smith. Okay.
    Dr. Michaels. One of the problems is that we spend 
tremendous amounts of taxpayer money on climate models--
    Chairman Smith. Okay.
    Dr. Michaels. --and very, very--models for what happens 
when you increase carbon dioxide and very, very little money on 
what's called natural climate variability. We know there are 
these great oscillations in the Atlantic and the Pacific that 
drive, modulate hurricanes, modulate storm tracks, modulate 
weather. Those things are not simulated in these climate 
models, and we need to understand that variability and subtract 
that out.
    I'll close in one second here. The warming of the late 20th 
century, which began in 1976 and either ended in 1998 or 
continued--attenuated after 1998 depending upon what we 
believe--is the same magnitude as the warming of the early 20th 
century that occurred between 1910 and 20--and 1945. That 
warming could not have been caused by carbon dioxide.
    Chairman Smith. Right.
    Dr. Michaels. It means that natural variability is as large 
as the largest human signal, and yet we only model the human 
signal. What's wrong with this picture, Congressman?
    Chairman Smith. Yes. Yes. That last point, the last couple 
points you seldom see covered in the media, but I think they're 
great points to make.
    Final question is should we be using the social cost at 
all?
    Dr. Michaels. We should use the social cost of carbon if 
it's accurately calculated, and I think there's a lot of debate 
about what we're supposed--what----
    Chairman Smith. Yes.
    Dr. Michaels. --what it comprises----
    Chairman Smith. Okay.
    Dr. Michaels. --and what the natural variability component 
of it is and all this good stuff. We're just not there. It's 
not ready for prime time, Congressman.
    Chairman Smith. Okay. Thank you, Dr. Michaels.
    I yield back, Mr. Chairman.
    Chairman Biggs. Thank you, Mr. Chairman.
    I recognize Chairman LaHood.
    Mr. LaHood. Mr. Chairman, I would just like--I forgot to 
submit a document for the record from the American Road and 
Transportation Builders Association regarding our hearing 
today. I would ask to submit it for the record.
    Chairman Biggs. Without objection.
    [The information appears in Appendix II]
    Chairman Biggs. The Chair recognizes Mr. McNerney.
    Mr. McNerney. Well, thank you, Mr. Chairman. Thank you for 
holding the hearing. I thank the witnesses this morning.
    Dr. Gayer, I'm very pleased to hear that you support a 
carbon tax. I think that's the way to go. I'm going to be 
proposing a carbon tax and benefit package a little bit later, 
and I hope to get your support on that. Can we follow through 
with that?
    Dr. Gayer. I'd be delighted to, yes.
    Mr. McNerney. Very good.
    About the domestic versus international impacts, do you 
believe that the physical impacts of climate change on other 
nations don't have an impact on our domestic economy or 
security?
    Dr. Gayer. No, I don't believe that, but what I believe is 
that the actions that we've taken thus far won't lead to 
reductions matched throughout the entire world. And there are 
many policies that we have outside of environmental or climate 
that we--that if other countries did the same thing--and you 
can think about foreign aid or any number of policies, the 
world would be a better place and we'd benefit perhaps from it, 
but we don't take those benefits into account. The regulations 
where----
    Mr. McNerney. So if we drop out of the Clean Power Plan and 
the Paris agreements, then that's not going to have an impact 
on China or India or the other countries that are big emitters?
    Dr. Gayer. I don't think the Clean Power Plan--well, I 
don't know that the Clean Power Plan would have an effect. If 
there's an international agreement and a treaty that is 
binding, then certainly we should consider the global benefits. 
Absent that, an EPA regulation I don't think will actually lead 
to realize the effects throughout the world and certainly not 
100 percent throughout the world.
    Mr. McNerney. So you think--you do think that climate 
change is a problem?
    Dr. Gayer. Sure. Yes. Yes.
    Mr. McNerney. And that the United States should have a 
leadership role in this issue?
    Dr. Gayer. Yes.
    Mr. McNerney. Thank you.
    Dr. Greenstone, what impact will eliminating the SCC have 
on current and future environmental protections designed to 
reduce greenhouse gas emissions? How is that going to affect us 
if we eliminate that measure?
    Dr. Greenstone. Thank you for the question. I think it will 
increase emissions. Of course it would naturally increase 
emissions in the United States, and that would increase the 
rate of climate change and global warming. What I think--the 
point I've been trying to make that I just want to underscore 
is I think it would also increase emissions in other countries, 
and so there would be a multiplier effect. And I think it's a 
mistake to conclude that the Paris agreement did not reflect 
U.S. leadership and did not reflect that the United States had 
adopted a robust climate policy. So--you know, let me also add 
there's I think again surprising agreement on this panel, at 
least among two of us, that there is climate change. Climate 
change is real. And there seems to be a little disagreement on 
the tactics.
    You know, our other two witnesses here I think are much 
more focused on cherry-picking particular features of it, and I 
think I couldn't agree with them more that updating the 
assumptions that underlie the social cost of carbon based on 
the advances in science in the last 7 or eight years is an 
important thing to do. And indeed, thankfully, the National 
Academy of Sciences has put out a very clear report on how to 
go about doing that.
    Mr. McNerney. Thank you. Now, some of the critics have 
implied that the SCC is created by the Obama Administration and 
pushed by environmentalists, but it's my understanding that the 
Reagan Administration first demanded the Federal Government to 
do a cost-benefit analysis, and the federal courts required the 
George W. Bush Administration to monetize these benefits. Is 
there any other way to do that than using the social cost of 
carbon?
    Dr. Greenstone. No. The--really what the courts were 
requiring that a social cost of carbon be developed. And I 
think when one thinks back to 2009, what was striking is that 
even though a ton of CO<INF>2</INF>, wherever it's emitted in 
the U.S. economy has the same impact, you had a complete 
discordant approach. The department--some departments were 
treating it as if there were zero costs associated with it, 
which is, just to be clear, effectively implying that climate 
change has no negative impacts.
    Mr. McNerney. Right.
    Dr. Greenstone. And others were effectively treating it as 
if it were infinity costs. And so I think landing at the 
approach and the number that we ended--tried to instill some 
discipline and coherence across--policy across the government.
    Mr. McNerney. And so what's the context of how this came 
about, how this measure came about?
    Dr. Greenstone. Yes. No, it was--sorry. The Court had 
required it, and the President had ordered that a number be 
developed and that--as I mentioned earlier, that used expertise 
from all branches of government.
    Mr. McNerney. And this was done in a transparent fashion?
    Dr. Greenstone. It was done in a transparent fashion. 
There's been endless opportunities for public comments. It's 
been at least 80 rules. In addition, it was put out for public 
comment on its own.
    Mr. McNerney. Is there some kind of consensus on what 
parameters to use for this model?
    Dr. Greenstone. Yes. There was great debate about it, and 
what--actually what--a rule that I tried to impose when we were 
leading the process was that we should not be making science--
we are, after all, faceless bureaucrats sitting in a room--but 
instead that our job was to summarize the frontier of science. 
And I feel that we were quite faithful to that goal.
    Mr. McNerney. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Biggs. Thank you. Dr. Michaels, you looked like 
you might want to respond to the assertion of cherry-picking.
    Dr. Michaels. I would like to--oh, sorry. I would like to 
respond to the assertion that without the social cost of carbon 
that our emissions would go up. That's what I call maybe herd 
reasoning, and I'd like to show you how well herd reasoning 
works with regard to emissions.
    This, which I just happen to be carrying in my backpack, is 
a shale oil rock. Ten years ago if I said that there were 
hundreds of years of oil--shale gas rather, which produces half 
the emissions of carbon dioxide when combusted for power 
production under our feet, polite company--and we would get it 
by exploding rocks, polite company would have laughed me out of 
every Washington cocktail hour. But that's the way people work.
    Regulation is not required to create efficiency. Markets 
are required to create efficiency. This is cheaper than its 
competitors, and emissions will continue to go down as long as 
our economy is free for the simple reason that the future 
belongs to the efficient.
    Mr. McNerney. Industry can be relied on to clean itself up. 
That's basically what you're saying.
    Dr. Michaels. No, the market can be relied upon to clean up 
industry.
    Mr. McNerney. Mr. Greenstone----
    Chairman Biggs. I'm sorry. The gentleman's time is expired.
    Mr. McNerney. I'm sorry.
    Chairman Biggs. The Chair recognizes Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    As policymakers, I think it's important that we all know 
what we don't know, and therefore, our attempts to predict the 
future impact of regulations are always speculative and subject 
to error.
    And that being said, it's also true that some predictions 
are more speculative and uncertain than others. The time 
between the implementation of a regulation and the onset of any 
potential benefits is a great example of a factor that makes 
some forecasts more reliable and others less so. Clearly, the 
longer the period of time is between the implementation of a 
rule and the realization of its benefits, the less reliable the 
analysis of the predicted benefits can be due to the increased 
likelihood of intervention from unforeseen sources.
    My first question is for Dr. Dayaratna. With what I've said 
in mind, can you give me an idea of the time horizon used in 
calculating the social cost of carbon? How far into the future 
are we looking at when we talk about this cost?
    Dr. Dayaratna. The time horizon for computing the social 
cost of carbon by the IWG is 300 years into the future. And 
it's interesting that you ask that question, Congressman. 
Firstly, it's difficult to forecast what the economy will look 
like, you know, even a couple decades into the future, let 
alone centuries.
    Now, Dr. Michaels had a slide about the temperature 
projections that John Christy talked about juxtaposing the 
IPCC's forecast versus satellite and weather balloon data. And 
I just find it astounding that people would want to use these 
models to try to make forecasts 300 years into the future when 
they can't even predict 20.
    Mr. Posey. Yes, we have trouble getting the weather 
predicted a day ahead of time----
    Dr. Dayaratna. Oh, absolutely.
    Mr. Posey. --oftentimes. So, wow, you're telling me we're 
basing our regulatory decisions on assumptions about what the 
world will be like in 300 years. In some ways that's kind of 
like our Founding Fathers trying to predict and regulate the 
internet.
    Dr. Dayaratna. Yes. I gave a talk, you know, a couple weeks 
ago on this topic. You know, John Adams once said America will 
one day become the greatest empire in the world, and he was 
right, but yet he'd have no idea what people are doing today 
using microphones, smartphones, tablets, and so forth. 
Similarly, we have no idea what things are going to look like 
that far into the future. And I quite frankly find it's--these 
models are quite foolish in actually trying to make those types 
of forecasts.
    Mr. Posey. Okay. Can you describe for us how the social 
cost of carbon estimates change when you use a more reasonable 
horizon?
    Dr. Dayaratna. So as I was referring to in my testimony, 
they change as--by--a reasonable figure is around 25 percent. 
That figure varies but on average around I think around 25 
percent or so, perhaps more.
    Mr. Posey. And given what you just said, do you think it's 
advisable to continue using the current social cost of carbon 
estimates in rulemaking proceedings?
    Dr. Dayaratna. Absolutely not. I think these models--you 
know, they're interesting for academic exercises but they need 
to be revised to be suitable for regulatory policy.
    Mr. Posey. Do you think in the future the agencies can and 
should be more forthcoming about the highly speculative nature 
and variable quality of social cost of carbon estimates?
    Dr. Dayaratna. I tend to think so, yes. To be quite honest, 
like the sheer fact that they are using an ECS distribution 
that was--that is ten years old and not even based on empirical 
research is one thing that is, you know, just not in detail 
talked about in the IWG's analysis. They did respond to this in 
the public comments; I will say that. But, yes, there are so 
many other things out there that they should be more 
forthcoming about.
    And, you know, there was a question that came up earlier 
about the use of a seven percent discount rate and why it was 
not used. Quite frankly, here's the reason why I think it 
wasn't used. Even using the outdated Roe Baker distribution, 
you still get a negative estimate of the SCC under a seven 
percent discount rate. That's why it wasn't used.
    Mr. Posey. Okay. There's been a lot of discussion about 
climate change. Can anyone on the panel give me a date certain, 
even a year certain that there was absolutely no climate change 
on this planet since the forming of it?
    Dr. Dayaratna. I believe that the climate has been changing 
since the planet was first formed.
    Mr. Posey. Any others?
    Dr. Greenstone. Mr. Congressman, are you talking about--
just so we're on the same page, are you talking about climate 
changing or climate changing due to the release of 
CO<INF>2</INF>? Because I can't quite tell from your question.
    Mr. Posey. I thought I was fairly clear.
    Dr. Greenstone. Okay. Well, then----
    Mr. Posey. Can you give me any date certain----
    Dr. Greenstone. The climate has certainly----
    Mr. Posey. --in the history of the Earth that the climate 
has not changed?
    Dr. Greenstone. Since the release of CO<INF>2</INF>, it has 
been changing more rapidly.
    Dr. Michaels. That's not true.
    Mr. Posey. You know, that's speculative, and I didn't ask 
you to describe a clock. I asked you if you knew what time it 
was.
    Yes, sir, at the end.
    Dr. Michaels. I think the climate was quite stable about 
one year before the Big Bang.
    Mr. Posey. Okay. Dr. Dayaratna.
    Dr. Dayaratna. Yes, there was actually a paper published in 
the Journal of the American Statistical Association last year 
that looked at tree ring analysis in Tornetrask, Sweden, and 
they found interestingly using their Bayesian modeling that in 
1750 the temperatures there it may have been just as warm if 
not warmer than they were today in 1750 before, you know, all 
the things that we--people tend to complain about today.
    Chairman Biggs. Thank you.
    Mr. Posey. Do you have any idea what----
    Chairman Biggs. The gentleman's time is expired.
    Mr. Posey. Any idea what the temperature was pre the last 
Ice Age when the dinosaurs were roaming the Earth?
    Dr. Dayaratna. Pat actually might have an answer to that.
    Dr. Michaels. The answer--that's a very good question and 
I'm glad you asked that. I don't think we have to go pre the 
last Ice Age. Let's go not to the most recent interglacial but 
to the penultimate one, the one between what some people call 
the Illinois glaciation and the Wisconsin glaciation. At the 
end of the current Ice Age, temperatures got quite a bit warmer 
than they are now, the beginning of the current interglacial. 
The beginning of the penultimate one, they were much warmer 
than they were in our interglacial.
    In Greenland, temperatures in summer averaged around 6 
degrees Celsius higher than now for 6,000 years. And guess 
what? The vast majority of the ice on Greenland survived, a 
heat load that human beings could not put on Greenland if they 
tried. And then somebody found a skeleton of a bear from 5,000 
years before that, and it turns out the DNA sequence was that 
of a polar bear.
    Chairman Biggs. Thank you. The gentleman's time is expired.
    Dr. Michaels. Thank you very much.
    Mr. Posey. Thank you.
    Chairman Biggs. The Chair recognizes my friend from 
Florida, Mr. Crist.
    Mr. Crist. Thank you very much. Good morning.
    I was wondering--Dr. Michaels, good morning. How are you?
    Dr. Michaels. I'm good.
    Mr. Crist. Do you believe that climate change is real?
    Dr. Michaels. Of course.
    Mr. Crist. Fabulous.
    Dr. Michaels. I also believe the sun will rise tomorrow.
    Mr. Crist. That's breathtaking.
    Dr. Michaels. I know. It's mindboggling.
    Mr. Crist. Do you--what would you estimate is the cause of 
the climate change you believe in?
    Dr. Michaels. There are natural causes and there is a human 
component. You have to understand, the warming of the second--
the second warming in the 20th century is accompanied by a 
cooling of the lower stratosphere. Now, if you change the 
greenhouse effect, because you change the upwelling flux of 
infrared radiation, you will warm the lower layers of the 
atmosphere but you will cool the stratosphere. That's what Karl 
Popper would call a difficult test of a theory. And indeed, the 
lower stratosphere cools concurrent with the warming of the 
troposphere, our neck of the woods. That's a greenhouse 
signature.
    But here's the cool part, Congressman Crist. In 1997, 1998, 
everybody knows that something happened to warming unless you 
really jimmy the records and it either slowed down or stopped.
    Mr. Crist. Attenuated you said.
    Dr. Michaels. Attenuated is a good word because you can 
attenuate----
    Mr. Crist. Sure.
    Dr. Michaels. --a lot or you can attenuate a little. But 
the stratospheric cooling also stopped. Now, if you want me to 
explain that, I'm going to tell you the three most important 
words in life.
    Mr. Crist. My question is simple. What causes climate 
change in your estimation?
    Dr. Michaels. Lots of things.
    Mr. Crist. What's the primary cause?
    Dr. Michaels. The fact that we live on a fluid 
discontinuous earth with long-period oscillations. I mean, the 
biggest climate change that you and I know of is an ice age 
oscillation, and I don't think CO<INF>2</INF> is going to be 
capable of doing that, and those occurred, you know, without 
human influence. Again, I say the warming of the late 20th 
century has a greenhouse component because of the stratospheric 
cooling. By did the stratosphere stop cooling when the surface 
warming either stopped or attenuated? You know what the answer 
why that happened is?
    Mr. Crist. May I ask another member a question?
    Dr. Michaels. No one knows is the answer.
    Mr. Crist. Dr. Greenstone, what do you think causes climate 
change, please?
    Dr. Greenstone. I think what we're here to talk about today 
is the climate change is caused from the release of 
CO<INF>2</INF>----
    Mr. Crist. Yes, sir.
    Dr. Greenstone. --of which I think that's a settled issue 
scientifically. And I can't help but note the contrast here 
between the concerns of the development of the SCC was an 
opaque process, which is the claims here. Let me just say the 
character of the conversation that occurred in those many, many 
meetings was really quite sober. It was rigorous. It was very 
scientifically based. And we--at no point did anyone talk about 
a skeleton of a polar bear as a way to make an argument.
    And my own view is that there's a great path forward, and I 
think there's agreement in the room that there should be a 
development that the social cost of carbon should be refreshed 
to reflect the scientific advances that have occurred since 
2009 and 2010. And literally, the National Academy of Sciences 
has outlined a terrific way forward that would also be 
rigorous, scientifically based, and sober, and I think there's 
a great opportunity for the Trump Administration to do that.
    Mr. Crist. Thank you. I'm from the Sunshine State, and I'm 
very proud of that. But having said that, we use less solar 
energy than New Jersey. And New Jersey's a great place, but 
it's the Garden State and we're the Sunshine State. And so the 
point I'm trying to make is if we're going to address climate 
change and probably the primary cause, which is CO<INF>2</INF>, 
carbon, then wouldn't it be better for us to try to get more of 
our energy from solar, from sun or wind in order to mitigate 
the cause?
    Dr. Greenstone. I think there's a great case for energy 
markets being in a very unlevel playing field. In particular, 
the fossil fuels, which involve the release of CO<INF>2</INF>, 
when we go to the gas pump and when we pay our electricity 
bill, we don't pay for the climate damages that are associated 
with using them. And if we were to level the playing field so 
that all sources of energy could compete on equal grounds, it 
would naturally be the case that there would be a greater 
reliance on, as you suggested, renewables, probably on nuclear 
as well, and other low-carbon energy sources.
    Mr. Crist. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Chairman Biggs. Thank you.
    The Chair recognizes Mr. Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much. And let me just note 
that I--one of my colleagues suggested that there is a 
consensus among scientists that global warming is being caused 
by CO<INF>2</INF> emissions, and let me just note that a 
consensus may mean 75 percent, it may mean 60 percent, it may 
mean ten percent and the others don't know for sure. But a 
consensus is not how you determine whether or not something is 
scientifically viable. You have to really look to see whether 
or not it makes sense what people are saying and whether or 
not, for example, attempts to receive government contracts for 
research were in some way influencing someone to target their 
outcome of their research because what I have heard in the last 
few years is that droughts are caused by global warming and the 
CO<INF>2</INF> level and then now it's floods are caused by 
CO<INF>2</INF> level and more tornados. I mean, how many times 
have we heard that the tornados and the hurricanes are more 
frequent, but they're not. You know, come to find out they are 
not more frequent. And all of this coming back to CO<INF>2</INF> 
and whether or not it is something that we should be concerned 
about at the level of CO<INF>2</INF>.
    You know, I drove across the country last year and I saw 
all these hothouses, and covered-up places, and they were 
growing all sorts of vegetables. And I went and stopped at 
several of them and guess what they were pumping into the 
hothouses? CO<INF>2</INF>. Now, why? Because it makes the 
plants grow better and that means there's more food.
    Now, let me ask you this. If we have less CO<INF>2</INF> in 
the air, does that mean that the plants, and I think we saw 
something there, that the plants will not grow as robustly if 
we have less CO<INF>2</INF> in the air? Whoever wants to go 
into that.
    Dr. Dayaratna. That is actually one of the aspects about 
the FUND model compared to the other models that is actually 
incorporated, the feedback from CO<INF>2</INF> into plants and 
agriculture from CO<INF>2</INF> fertilization. So the other 
models, the DC. and PAGE model the IWG used, do not account for 
this type of feedback.
    Mr. Rohrabacher. So that's a great benefit if we have trees 
that are growing stronger and more trees, more edible plants 
growing stronger, but that benefit was not calculated into the 
cost-benefit of other studies?
    Dr. Dayaratna. That benefit was incorporated in the FUND 
model analysis. Out of the three models used by the IWG, the 
FUND model actually incorporated that benefit. And, you know, 
Pat can talk more about this, but there are other benefits in 
there that could potentially be modeled that, you know, the 
FUND model doesn't take into account such as, say, aquatic 
life----
    Mr. Rohrabacher. Okay.
    Dr. Dayaratna. --you know, detailed aspects about 
vegetation, detailed aspects about agriculture, and so forth 
that the economy could benefit from.
    Mr. Rohrabacher. Well, let me just put it this way. It's 
clearer that in the past there were higher levels of CO<INF>2</INF> 
and great plant life throughout the planet, and we know that 
and that's very easily discovered in any research. But now, our 
CO<INF>2</INF> level is looked at as if it's going to be 
harmful, and let me just say that I don't think that there is a 
consensus at a high level of percentage, and I think we need to 
make sure that before we jump into international agreements 
that it's not just whether it's global benefit or whether it's 
local benefit. We just have to see whether there's any validity 
to this concept in the first place so----
    Dr. Michaels. Congressman, can I offer an observation?
    Mr. Rohrabacher. Please do.
    Dr. Michaels. I understand that it is thought to be 
socially responsible to pay for the costs of emission of carbon 
dioxide, and I also would argue that the fossil fuel-driven 
societies since 1900 in the developed world have increased 
their lifespan by 100 percent and their per capita wealth 11-
fold. Are we to not also take into account that massive 
benefit? We should all be dead given our ages in this room if 
this were 1900, but it is that society that allows us to live.
    Chairman Biggs. Thank you.
    Mr. Rohrabacher. That's a very good point and I'm glad I'm 
not dead. There you go.
    Chairman Biggs. The gentleman's time is expired. Thank you.
    The Chair recognizes Mr. Marshall from Kansas.
    Mr. Marshall. Thank you, Mr. Chairman. I wish my colleague 
from Florida was still here. I was going to share with him that 
we have more sunny days in Kansas than there. Oh, you are still 
here, Governor. So we have more sunny days in Kansas than 
Florida, so we look forward to continuing the diversity of 
energy from Kansas. So thanks for sharing that. I want to 
acknowledge a good friend of mine, John Francis, who's in the 
audience, flew all the way in from Great Bend, America, to hear 
our President speak.
    Dr. Gayer, the first question's for you. You mentioned that 
you would be in favor of a carbon tax being implemented. If we 
implemented a carbon tax, do you think we could also do away 
with some of the regulations governing all these carbon 
producers and just let us pay a tax and be done with it if we 
can measure it in some way?
    Dr. Gayer. Yes. So certainly in many ways that's kind of 
the thrust of my critique of what's going on in the regulatory 
sphere. The--and I'm a--Michael Greenstone mentioned leveling 
the playing field. And so for me the carbon tax is a way to 
level the playing field, and the regulatory interventions that 
we've had are a very, very flawed approach to trying to do 
that. And in my view, the modeling and the global versus 
domestic are sort of justifications for what I think is a 
flawed approach.
    So, you know, the ultimate trade is a carbon tax in 
exchange for a tax reduction for more harmful taxes and less 
regulation and just stick to the pricing.
    Mr. Marshall. Anybody else want to weigh in on that? Dr. 
Greenstone, please.
    Dr. Greenstone. Yes, I think there's a great opportunity 
for applying a carbon tax at an appropriate level and using--
the revenues could be used in a variety of ways. It could be 
refunded. They could be used to reduce other taxes. And I think 
they would provide a great opportunity as well for--as a--they 
could be an excellent substitute for a lot of the regulations 
that are in place. So there's agreement here.
    Dr. Michaels. And with regard to the revenue neutrality, I 
would offer my comment in the form of a question. Do you really 
expect $3 trillion to walk down K Street unmolested?
    Mr. Marshall. Okay. I don't know what to say to that. I 
hope the question wasn't for me.
    This social carbon tax is a perfect example of government 
making the simple complicated. I don't think we'll ever agree. 
It's a social number; it's a political number. That's what it 
seems to me and I'm very new to this game.
    I guess what I'm more concerned about is, as I watched the 
Olympics in China and so on and so forth, it would seem to me 
that whatever measure you use that some of our biggest 
competitors are producing more of this carbon. And I'm just 
curious in the big scheme of things in today's world how much 
carbon is America producing in relationship to China or India, 
regardless of the social cost we can argue? But what percentage 
are we now responsible for?
    Dr. Greenstone. I think this is a rough number. I think 
historically--I think right now China is producing about 50 
percent more per year than we are. I think we are the second-
largest emitter, larger than the EU, larger than India. I think 
starting from the Industrial Revolution--someone else might 
know here--but I'm going to guess that I think we're 
responsible for about maybe a quarter of all emissions.
    Mr. Marshall. Okay.
    Dr. Michaels. Yes, but we are becoming more efficient. Our 
emissions intensity, which is the amount of CO<INF>2</INF> 
produced per unit GDP has dropped more rapidly than pretty much 
everywhere, and that didn't happen because of regulations. It 
happened because of markets. So if you want efficiency, you 
would prefer economic----
    Mr. Marshall. And I want to move on. So I grew up in a 
small town between two refineries, oil refineries. So proud 
that our air in Kansas is cleaner today than it was when I was 
growing up and the waters are cleaner. I want to keep moving in 
that direction. Back to my point: manufacturing. I'm trying to 
figure out why manufacturing jobs have left Kansas, and one of 
them is the cost of energy. Does anybody have any solutions? 
How do we encourage China, India, other countries to take leads 
in this responsibility? Does anybody have any solutions? Do we 
tax them or--I don't want to--does anybody have any solutions 
on how we encourage them to get into this game?
    Dr. Greenstone. I think Dr. Gayer outlined one effective 
tool, which would be to have a carbon tax and then have some 
border tariff--border tax adjustment so that if people tried to 
import--so let's say steel that had carbon embedded in it or 
carbon was used to produce it, they would face the same carbon 
tax that domestic producers would face.
    Mr. Marshall. But you would adjust that per country or how 
would you figure out--so Europe's doing good, Germany's doing 
good, but China's not.
    Dr. Greenstone. Yes, so you'd have to--there would be some 
complexity, I think, but it's imminently doable.
    Chairman Biggs. Thank you. The Chair recognizes Mr. Higgins 
from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    We're here to discuss the real cost of carbon as it's 
imposed upon the American people. And it's interesting to note 
that in discussing the social cost of carbon I've heard terms 
like ``overwhelming consensus of scientific opinion'' and 
``real science'' and yet the measurement standards use a 300-
year window to determine actual taxation and cost placed upon 
the American people. And it's interesting to consider that 
we're very fortunate that we're not bound by the science of 300 
years ago when we would be discussing egocentricity, alchemy, 
spontaneous generation of life, and the hollow Earth. And yet 
scientists tend to speak as if their scientific calculations 
are absolute and unchallengable. To me, the real overwhelming 
consensus is that the social cost of carbon is a cost measured 
not by 300-year windows of manipulated science but the 
contemporary and very real cost of American jobs and American 
treasure.
    So I ask Dr. Dayaratna, you mentioned there are updated 
equilibrium climate sensitivity distributions. These ECS 
distributions quantify the Earth's projected temperature 
response to a doubling of carbon dioxide concentrations. As you 
note, these recent ECS distributions appear to reflect a lower 
chance of extreme global warming in response to increased 
carbon dioxide concentrations. Can you explain or can you give 
us some insight or are you aware of why the previous 
Administration, through their Interagency Working Group failed 
to update the SCC or any other social cost of greenhouse gas 
estimates to reflect these more up-to-date ECS distributions? 
If it was not a political decision, then please explain, what 
was it?
    Dr. Dayaratna. So the Roe Baker distribution that was 
published in 2007 is calibrated to a priori assumptions that 
the IWG wanted to make regarding global warming based on, you 
know, a compiled research discussed by the IPCC. The thing is 
that--again, that distribution is calibrated. It is not an 
empirical distribution. The percentiles were fitted based to 
assumptions that the working group wanted to make. Subsequent 
ECS distributions are actually empirically estimated, so they 
are much more worth considering.
    Now, the question regarding why were these new 
distributions not included, I think, quite frankly, the reason 
is that they lower the estimate of the SCC substantially even 
if you don't use a seven percent discount rate, even if you use 
the assumptions that the IWG wanted to make regarding 2.5, 3, 
and five percent. You can still get a negative SCC using more 
up-to-date distributions because the fat tail of the Roe Baker 
distribution has essentially gone on a diet with the newer more 
up-to-date ECS distributions, signifying the lower probability 
of global warming.
    Mr. Higgins. Dr. Michaels, do you have something to add?
    Dr. Michaels. I think Kevin is right.
    Dr. Dayaratna. Your mike's not on.
    Chairman Biggs. Please press your mike. Thank you.
    Dr. Michaels. It was not a lower probability of global 
warming. It's a lower probability of high-end global warming--
--
    Dr. Dayaratna. High-end global--yes.
    Dr. Michaels. --which is--and that is correct.
    Mr. Higgins. And with the increase of carbon emissions 
measured globally, would it not be a reasonable consideration 
that greenhouse gas effect would in fact assist the economies 
of the earth regarding agricultural production?
    Dr. Michaels. Well, the effect of carbon dioxide--the 
direct effect on plants is well-documented, and the image that 
I showed at the end of my presentation, which is a very recent 
image, documents the actual greening of much of the Earth, not 
just the agricultural component of the Earth. And it's very 
reassuring to see that the largest greenings--and they are 
very, very large--tends to take place in the margins of the 
deserts south of the Sahara and in the northern parts of the 
tropical rainforest where we were very concerned.
    Mr. Higgins. Dr. Greenstone, I believe----
    Dr. Greenstone. Yes.
    Mr. Higgins. --Mr. Chairman, he has something to add 
although I'm out of time.
    Chairman Biggs. Your time is expired. Sorry.
    The Chair recognizes Mr. Babin.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    Fascinating testimony. I want to thank everyone for being 
here, these witnesses.
    I represent the 36th District in Texas, which contains the 
highest concentration of chemical plants and oil refineries of 
any one district in the entire country. So when the federal 
government issues carbon regulations based on questionable data 
and methods, this is of great concern to me because they have a 
direct and significant impact on my constituents.
    And, Dr. Dayaratna, putting things in a perspective from 
the Industrial Revolution, what association do you see between 
carbon dioxide emissions and the health of our economy? And 
along with what some of you folks have already said, obviously 
it's going to be a drag but I'd like to hear you elaborate a 
little bit more on that.
    Dr. Dayaratna. Okay. Well, no, that's a very good question, 
Congressman. So here's the thing. And a lot of people take for 
granted that energy is a fundamental building block of 
civilization. So whether it's, you know, powering this room, 
lighting up our homes, powering our cars and so forth, we all 
depend on energy.
    So when we think about, you know, this whole concept of 
SCC, the whole goal is to reduce carbon dioxide emissions, and 
what we end up doing is moving away from the least expensive 
and most efficient forms of electricity to more expensive and 
less efficient forms.
    So--and the bottom line is economically what we'll notice 
is that when we go to these so-called lower carbon-emitting, 
you know, forms of energy, what we would notice is a dramatic 
change to the economy in the long run. You--you know, a carbon 
tax, as I was talking about in my testimony, would--in 
conjunction with the SCC would result in around 400,000 lost 
jobs on average by 2035, 13 to 20 percent increase in 
electricity prices, a $2.5 trillion loss in GDP.
    Now, on the other hand--and I've also researched this 
question--if we were to take advantage of the vast shale oil 
and gas we have in this country, we'd actually see the exact 
opposite, in fact, even more so in the other direction. We 
would see a $3.7 trillion increase in GDP, personal income 
would skyrocket----
    Mr. Babin. Absolutely.
    Dr. Dayaratna. --and, yes, all sorts of things that would 
benefit the economy.
    Mr. Babin. Absolutely. Thank you so very much for that 
testimony. And, Dr. Michaels, it's interesting to hear you put 
a historic and prehistoric context into all this.
    Dr. Michaels. I've lived that long.
    Mr. Babin. Well, as a student of history, I've read some of 
the Norse settlements coming from Norway over to Iceland and 
onto Greenland, and they had settlements there I think from the 
year 1000 and had trade and routine ships calling on them from 
Europe for a couple of 300 years. And they were in the process 
of raising livestock, had hay crops, and then strangely, it had 
been over 150 years when a ship called on them in the 1500s and 
none of that community was left. And by that time the climate 
had cooled off considerably. The hay crops were no longer 
there. The folks had disappeared.
    So I don't think there was a huge amount of industrialism, 
carbon dioxide being released into the earth from humans during 
those centuries, so if you can kind of address that as well, 
along with some of the other----
    Dr. Michaels. Well, the nature of climate is to change.
    Mr. Babin. Right.
    Dr. Michaels. It is because we are not a uniform earth. We 
do not have a circular orbit. The sun varies and the infrared 
absorption of the atmosphere varies, sometimes with human 
activities. It's--what do they say? It's complicated, 
Congressman. And the problem is in the illustration that I 
showed, comparing the satellite and weather balloon 
observations to the average of the United Nations' 107 computer 
models shows that it's so complicated that we haven't gotten 
close to getting it right and why would you base a policy upon 
something that is so blatantly wrong?
    Mr. Babin. Thank you so very much. And the American people 
deserve to know the truth here and have sound scientific data, 
and that's what this hearing's all about. I want to thank 
everybody again for being here, and I'll yield back, Mr. 
Chairman. Thank you.
    Chairman Biggs. Thank you. The Chair recognizes Mr. Weber 
from Texas.
    Mr. Weber. Thank you, Mr. Chairman. I have a question for 
each of you all. There seemed to be some discussion about 
whether climate change was real and what that meant and the 
definition, so here's my question for each of you individually, 
and we'll start with you, Dr. Gayer. Would you agree that 
climate change is caused by temperature fluctuation?
    Dr. Gayer. Yes.
    Mr. Weber. Dr. Dayaratna?
    Dr. Dayaratna. Dayaratna.
    Mr. Weber. Thank you.
    Dr. Dayaratna. The question is would I agree that climate 
change is caused by----
    Mr. Weber. Is caused by temperature fluctuation?
    Dr. Dayaratna. Yes.
    Mr. Weber. How about you, Dr. Greenstone?
    Dr. Greenstone. It's a function of temperature variation. 
It's also a function of CO<INF>2</INF> emissions.
    Mr. Weber. Temperature variation is a good one, too. I 
didn't mention CO<INF>2</INF>. I'll come back to you. Dr. 
Michaels, would you agree climate change is caused by 
temperature fluctuation?
    Dr. Michaels. It is the contrast--oh, sorry. It is the 
contrast in temperature between the surface and the upper 
atmosphere that derives--drives most of the precipitation 
mechanisms on Earth, so the answer would be if that changes, 
yes.
    Mr. Weber. Okay. I'll take that as a yes.
    Dr. Gayer, would you agree that temperatures fluctuate when 
seasons change?
    Dr. Gayer. Yes.
    Mr. Weber. Doctor?
    Dr. Dayaratna. Yes.
    Mr. Weber. Dr. Greenstone?
    Dr. Greenstone. Yes. I also think they fluctuate----
    Mr. Weber. Dr. Michaels?
    Dr. Greenstone. --from CO<INF>2</INF> emissions.
    Dr. Michaels. Me four.
    Mr. Weber. Okay. Dr. Gayer, back to you. Would you 
believe--would you agree that temperatures fluctuate in 
historical, global, cyclical fashion? In other words, we have 
historical evidence that temperatures changed up or down 
historically.
    Dr. Gayer. Yes, I don't know cyclical necessarily but yes--
--
    Mr. Weber. Well, okay.
    Dr. Gayer. --it's gone up, it's gone down.
    Mr. Weber. I'll give you that. How about--
    Dr. Dayaratna. Yes.
    Mr. Weber. --you, Doctor?
    Dr. Dayaratna. Yes.
    Mr. Weber. Dr. Greenstone, would you agree with that?
    Dr. Greenstone. Yes. I also think that it varies----
    Mr. Weber. It's just a yes or no.
    Dr. Greenstone. --because of CO<INF>2</INF> emissions----
    Mr. Weber. Dr. Michaels?
    Dr. Michaels. I will use the weasel word quasi-cyclical.
    Mr. Weber. Got you. Okay. Now, would you agree also, 
Doctors, that the temperatures actually fluctuate more when 
seasons change? Obviously, they go up drastically in Texas to 
100, 110 in the desert area sometimes or they go way down 
below, so when it changes from fall to winter, for example, 
temperatures fluctuate wildly. Would you agree with that, Dr. 
Gayer?
    Dr. Gayer. I'm confused by the question because I thought 
that was the previous question.
    Mr. Weber. Would you agree that temperatures fluctuate more 
when seasons change than they just do from week to week, for 
example?
    Dr. Gayer. Yes.
    Mr. Weber. Okay. Dr. Dayaratna?
    Dr. Dayaratna. Yes.
    Mr. Weber. Okay. Dr. Greenstone, minus the COT component--
CO<INF>2</INF>?
    Dr. Greenstone. I think CO<INF>2</INF>'s important in terms 
of temperature. I also think seasons are important in terms of 
temperature.
    Mr. Weber. Dr. Michaels, would you agree they fluctuate 
more wildly when seasons change?
    Dr. Michaels. Yes, sir.
    Mr. Weber. Great. So we know that the temperatures 
fluctuate when seasons change. Now, we're talking about a 
carbon tax. And so if you go back to where we're going to 
charge carbon tax for people on industry or countries, let's 
say, that have industry, are we going to take into account when 
their seasons change because now they're using more electricity 
when it's hot or more electricity when it's cold? Do you take 
that into account at all in the proposed carbon tax?
    Dr. Gayer. I'm not----
    Mr. Weber. Do they get a credit when----
    Dr. Gayer. No, the----
    Mr. Weber. --they have a mild season.
    Dr. Gayer. The goal of the carbon tax is to include a price 
into the energy decision. So certainly when they use more 
energy, the tax will go higher and the----
    Mr. Weber. Okay. So they could put----
    Dr. Gayer. If you're tying it to like tax reduction 
somewhere else, the revenue would go higher then.
    Mr. Weber. They do get a credit when it's mild. I got you. 
Okay. Now, what happens when those countries have a tremendous 
catastrophe, whether it's a huge hurricane or a huge cyclone, 
tsunami, or you name it, and they are really hard hit and they 
have to have more energy production to rebuild their country, 
do they then get a tax credit to be able to go back and rebuild 
their country or do we punish them more because now they're 
using more energy to rebuild?
    Dr. Greenstone. Can I ask a clarifying----
    Mr. Weber. No, I'm asking him first, Dr. Gayer.
    Dr. Gayer. I don't--I didn't--I don't understand the tax--
--they level--you level--the tax increases the price of energy, 
yes.
    Mr. Weber. So no matter what happens in a country, if they 
have a huge catastrophe and they have to use a lot of energy to 
rebuild their country, they don't get a break? They're just 
going to pay more carbon tax at that point?
    Dr. Gayer. Yes, that's the nature of a tax.
    Mr. Weber. Doctor, do you agree with that?
    Dr. Dayaratna. That--I've never put together a carbon tax 
proposal myself----
    Mr. Weber. I'm just----
    Dr. Dayaratna. --but in principle, the--yes, that seems to 
be what----
    Mr. Weber. That's what's going to happen.
    Dr. Dayaratna. --we would want to do, yes.
    Mr. Weber. Dr. Greenstone, do you agree that's going to 
happen, they use more energy, more carbon to rebuild their 
country and they're going to get taxed on it?
    Dr. Greenstone. I just want to clarify if we're talking 
about a hurricane disaster that's due to CO<INF>2</INF> 
accumulation in the atmosphere or just one that has----
    Mr. Weber. I'm talking about the tax once they have a 
disaster. Do you know where I'm going, Dr. Michaels? Can you 
see what I'm asking here?
    Dr. Michaels. Yes. I believe that you are drawing the 
analogy to what happened to this House when it passed cap-and-
trade in 2009.
    Mr. Weber. Well, that was a catastrophe all right but----
    Dr. Michaels. Correct.
    Mr. Weber. So here's the point I'm making. Now, suppose an 
industry comes along and they develop a process of capturing 
CO<INF>2</INF> and putting it underground. Do we revoke the 
carbon tax?
    Dr. Gayer. No, you credit it. That's the--that----
    Mr. Weber. Credit it?
    Dr. Gayer. That's--and that's one of the nice incentives of 
having a tax because it incentivizes those kind of 
technological improvements.
    Mr. Weber. Okay.
    Dr. Greenstone. In fact, it would be terrific. It would 
provide a market incentive----
    Mr. Weber. Okay.
    Dr. Greenstone. --to engage for people to find ways to 
reduce----
    Mr. Weber. Okay.
    Dr. Greenstone. --CO<INF>2</INF> in the atmosphere.
    Mr. Weber. Okay. Well, let me just----
    Dr. Gayer. And be more resilient going forward.
    Mr. Weber. --add for the record, Mr. Chairman, and I'm done 
that in my district we have the largest carbon capture storage 
unit, Air Products in--over in Jefferson County in the country. 
So just interesting food for thought where we're headed with 
this idea.
    Mr. Chairman, I yield back.
    Chairman Biggs. Thanks. I thank the witnesses for their 
valuable testimony and the members for their questions. The 
record will remain open for two weeks for additional comments 
and written questions from members. This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 [all]
</pre></body></html>
